Office of Audits and Evaluations
Report No. AUD-12-014


Material Loss Review of Tennessee
Commerce Bank, Franklin, Tennessee




                                   September 2012
                                    Executive Summary

                                    Material Loss Review of Tennessee Commerce
                                    Bank, Franklin, Tennessee
                                                                                   Report No. AUD-12-014
                                                                                          September 2012

Why We Did The Audit
Section 38(k) of the Federal Deposit Insurance Act (FDI Act), as amended by the Dodd-Frank Wall Street
Reform and Consumer Protection Act (the Financial Reform Act), provides, in general, that if the Deposit
Insurance Fund (DIF) incurs a material loss with respect to an insured depository institution, the Inspector
General of the appropriate federal banking agency shall prepare a report to that agency, reviewing the
agency’s supervision of the institution. Section 38(k), as amended, establishes a material loss review
(MLR) threshold of $150 million for losses that occur for the period January 1, 2012 through
December 31, 2013.

On January 27, 2012, the Tennessee Department of Financial Institutions (TDFI) closed Tennessee
Commerce Bank (TCB), and the FDIC was appointed receiver. The FDIC notified the Office of Inspector
General (OIG) on March 13, 2012 that TCB’s total assets at closing were $1.0 billion and that the
estimated loss to the DIF was $416.8 million (or 42 percent of TCB’s total assets). The FDIC OIG
engaged KPMG LLP (KPMG) to conduct an MLR of TCB. The performance audit objectives were to
(1) determine the causes of TCB’s failure and the resulting material loss to the DIF and (2) evaluate the
FDIC’s supervision of TCB, including the FDIC’s implementation of the Prompt Corrective Action
(PCA) provisions of section 38 of the FDI Act. As part of the audit, KPMG reviewed the application
submitted by the Tennessee Commerce Bancorp, Inc. (Bancorp)–TCB’s parent holding company–for
capital from the United States Department of the Treasury’s (Treasury) Troubled Asset Relief Program
(TARP) and examiner coverage of the use of those funds at TCB.


Background
TCB commenced operations on January 14, 2000. The institution’s corporate and banking offices were
located in Franklin, Tennessee, which is about 15 miles south of Nashville. The bank was wholly owned
by Bancorp, a publicly traded, one-bank holding company. TCB’s assets were centered in its loan
portfolio, which totaled $1.17 billion as of December 31, 2009, a point at which loan growth was slowing
and the FDIC had determined the bank to be in a “troubled condition.” The loan portfolio consisted of
55 percent commercial and industrial (C&I) loans, 38 percent real estate loans (both commercial and
consumer), and 7 percent consumer and credit card loans as of that date.

Although TCB offered a full range of banking services and products, its operations focused on a
nontraditional “Business Bank” strategy that emphasized banking services for small- to medium-sized
businesses, entrepreneurs, and professionals in the bank’s local market within a 250 mile radius of the
Nashville, TN, metropolitan area. The strategy did not target retail customers or involve competition with
other banks based on the traditional definition of “convenience.” For example, the bank did not maintain
a branch network, a teller line, a drive-through window, or extended banking hours at its main office.
TCB’s customized business lending consisted of such things as providing lines of credit and term loans
secured by accounts receivable, inventory, equipment, and real estate. The bank also made commercial
real estate (CRE) loans, including acquisition and construction loans for business properties and term loan
financing of CRE.

A large portion of TCB’s lending activities included collateral-based financing to national and regional
equipment vendors and financing companies through two indirect national market funding programs, one
of which focused on large loans and the other on small loans. Under both programs, transactions were

                                  To view the full report, go to www.fdicig.gov
                                      Material Loss Review of Tennessee Commerce
   Executive Summary
                                      Bank, Franklin, Tennessee
                                                                                      Report No. AUD-12-014
                                                                                             September 2012


originated by third parties, such as equipment vendors or financial services companies, that provided TCB
with borrower financial information and arranged for the borrowers’ execution of loan documentation.
As of December 31, 2009, TCB’s indirect national market funding programs accounted for about
25 percent of the bank’s $1.17 billion loan portfolio. In addition to its main office in Franklin, TCB
operated three loan production offices in Alabama, Minnesota, and Georgia prior to the downturn in its
lending markets. By January 2011, all three loan production offices had closed. TCB also originated and
sold loan packages and loan participations to increase its earnings and manage its exposure to borrowers.


Audit Results
Causes of Failure and Material Loss

TCB failed primarily because its Board of Directors (Board) and management did not effectively manage
the risks associated with the bank’s sustained high growth in C&I lending. Notably, TCB had a
significant concentration in an economically sensitive and specialized segment of the C&I market
pertaining to the transportation industry. The bank’s lending in this area included loans to leasing
companies and lease brokers for the financing of trucks, buses, and other commercial use vehicles.
However, TCB’s underwriting, administration, monitoring, and collection procedures for these and other
C&I loans was not adequate. Contributing to the bank’s credit risk exposure were large and complex
borrowing relationships that were not effectively managed. Further, TCB’s funding strategy for
sustaining loan growth and maintaining liquidity involved heavy reliance on non-core funding sources,
such as Internet and brokered deposits, and capital injections from its holding company. Finally, TCB did
not maintain capital at levels that were commensurate with its risk profile.

In 2007, TCB began to experience problems with its loans in the transportation industry due to the bank’s
lax lending practices and a softening economy. The credit quality of TCB’s loan portfolio continued to
decline in 2008 and accelerated as the economy deteriorated. However, TCB continued its high growth
strategy, reporting that it originated over $90 million in new loans during the first quarter of 2009. In
total, TCB originated or renewed about $400 million in loans from 2009 until its failure. The bank
ultimately charged off about $64 million of the $400 million amount as loss. TCB’s Board and
management failed to recognize problems and losses in the bank’s loan portfolio in a timely manner or to
take appropriate action to address problems as they developed. TCB also engaged in unusual lending
practices, such as insurance premium financing, and made a number of particularly risky loans to
individuals in the banking sector that were secured by the stock of other banks in the years before its
failure. These loans contributed to the bank’s losses.

TCB’s final Consolidated Reports of Condition and Income indicated that the bank lost more than
$165 million during 2011 and had negative equity capital. The TDFI closed TCB on January 27, 2012
because the institution was unable to raise sufficient capital to support safe and sound banking operations.

The FDIC’s Supervision of TCB

The FDIC, in coordination with the TDFI, provided ongoing supervisory oversight of TCB through
regular onsite examinations, visitations, and various offsite monitoring activities. Through its supervisory
efforts, the FDIC identified risks in the bank’s operations and brought these risks to the attention of the
institution’s Board and management through examination and visitation reports, correspondence, and a


                                  To view the full report, go to www.fdicig.gov
                                      Material Loss Review of Tennessee Commerce
   Executive Summary
                                      Bank, Franklin, Tennessee
                                                                                     Report No. AUD-12-014
                                                                                            September 2012


formal enforcement action. Such risks related to the Board and management’s oversight of the institution,
the bank’s lending strategy, loan underwriting and credit administration, the decline in the loan portfolio,
and TCB’s heavy reliance on non-core funding sources. Based on the results of an August 2010 joint
examination, TCB’s Board stipulated to the issuance of a Consent Order, which became effective on
May 25, 2011 and remained in place until the bank was closed.

TCB exhibited a high-risk profile in the years preceding the bank’s financial decline. Key risks included:

       Sustained high growth and heavy concentrations in economically sensitive segments of C&I
        lending, including emphasis on specialized lending to leasing companies and lease brokers in the
        transportation industry, the nature of which exposed the bank to elevated credit risk.

       Reliance on outside sources of capital to maintain growth and capital ratios that were marginally
        above the PCA thresholds for Well Capitalized institutions.

       Exposure to large and complex borrowing relationships without adequate underwriting and
        administration.

       Dependence on non-core funding sources, such as Internet and brokered deposits, to support loan
        growth and liquidity.

Examination reports issued in the years before TCB’s financial decline noted that the bank had a
relatively high-risk profile and included recommendations to TCB’s Board and management to address
risks identified during the examinations. During those periods, TCB was profitable, its financial
condition was satisfactory, and conditions in its lending markets were generally favorable. Under the
FDIC’s current approach to supervision, banks with elevated risk profiles, such as TCB, are subject to
increased supervisory analysis and a more proactive supervisory response—including accelerated
examinations or visitations, lower ratings, and/or supervisory actions—when risks are not properly
managed.

In the case of TCB, a more proactive supervisory response to the bank’s risky business activities during
earlier examinations may have been prudent. Such a response could have included placing greater
emphasis on TCB establishing prudent limits on its industry and borrower concentrations, holding higher
levels of capital, and implementing stronger risk management practices—particularly with respect to its
specialized lending and funds management practices. A more in-depth review of TCB’s loan portfolio
during the April 2008 TDFI examination also may have been warranted given the risk and complexity of
the bank’s lending practices, its continued high growth, and management’s less-than-satisfactory
oversight of the bank. Examiners could have also expressed greater concern within the examination
report regarding the risks associated with segments of TCB’s C&I loan portfolio, including
concentrations of credit pertaining to the transportation industry.

Based on the results of the June 2009 examination, the FDIC pursued a Memorandum of Understanding
(MOU) with TCB’s Board to address key risk management concerns. Although TCB’s Board passed a
bank board resolution to address the issues identified during the examination, the FDIC was unable to
persuade the bank to execute an MOU. The FDIC performed a visitation of the bank in April 2010. In
retrospect, accelerating the next full-scope examination may have resulted in the necessary support to
pursue a formal action sooner than the Consent Order that became effective in May 2011.

                                  To view the full report, go to www.fdicig.gov
                                     Material Loss Review of Tennessee Commerce
   Executive Summary
                                     Bank, Franklin, Tennessee
                                                                                    Report No. AUD-12-014
                                                                                           September 2012


With respect to Bancorp’s receipt of $30 million under the TARP Capital Purchase Program (CPP), in
accordance with provisions of the Emergency Economic Stabilization Act of 2008 (EESA), the FDIC
recommended that Treasury approve Bancorp for CPP funds after determining that TCB met all of
Treasury’s eligibility criteria. Examiners obtained documentation during the June 2009 joint examination
that addressed TCB’s use of the CPP funds and efforts to comply with executive compensation
requirements associated with CPP funding. While the June 2009 joint examination report stated that CPP
funds were used to fund loan growth, the report did not address TCB’s compliance with the CPP
securities purchase agreement. The August 2010 joint examination report stated that examiners were
unable to determine whether TCB fully complied with the agreement and the requirements of EESA
based on limited information provided by the bank. According to RMS officials, examiners made
multiple attempts to obtain information from the TCB’s Chief Financial Officer and other bank
management officials.

Based on the supervisory actions taken with respect to TCB, the FDIC properly implemented the
applicable PCA provisions of section 38.

As it relates to the issues and lessons learned discussed in this report, the FDIC has taken a number of
actions to enhance its supervision program based on the lessons learned from failures during the recent
financial crisis. Such actions include instituting a training initiative for examiners on the appropriate
supervisory response for banks with elevated risk profiles and issuing additional supervisory guidance on
funds management practices and specialty lending areas, including C&I lending and lease financing.


Management Response
Subsequent to the issuance of KPMG’s draft report, RMS and TDFI officials provided additional
information for KPMG’s consideration, and KPMG revised its report to reflect this information, as
appropriate. On September 11, 2012, the Director, RMS, provided a written response to the draft report.
In the response, the Director reiterated the causes of TCB’s failure and the supervisory activities
described in the report. Further, RMS has recognized the threat that institutions with high risk profiles,
such as TCB, pose to the DIF and issued additional guidance to examiners related to C&I loans and lease
financing in 2009 and 2010. RMS also issued a Financial Institution Letter (FIL) to FDIC-supervised
institutions in 2009 entitled, The Use of Volatile or Special Funding Sources by Financial Institutions
That Are in a Weakened Condition. According to RMS, this FIL heightened its supervision of institutions
with aggressive growth strategies or excessive reliance on volatile funding sources.




                                 To view the full report, go to www.fdicig.gov
Federal Deposit Insurance Corporation                                               Office of Audits and Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                                  Office of Inspector General


DATE:                                     September 13, 2012

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Risk Management Supervision


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Deputy Inspector General for Audits and Evaluations

SUBJECT:                                  Material Loss Review of Tennessee Commerce Bank,
                                          Franklin, Tennessee (Report No. AUD-12-014)


The subject final report is provided for your information and use. Please refer to the Executive
Summary, included in the report, for the overall audit results. The report does not contain
recommendations, thus a response was not required. However, the Division of Risk
Management Supervision provided a written response on September 11, 2012. We
incorporated the response into Part II of the final report.

If you have questions concerning the report, please contact me at (703) 562-6352 or
Mark Mulholland, Assistant Inspector General for Audits, at (703) 562-6316. We appreciate
the courtesies extended to the Office of Inspector General and contractor staff.

Attachment
                          Table of Contents

Part I

   Report by KPMG LLP                                         I-1
   Material Loss Review, Tennessee Commerce Bank, Franklin,
   Tennessee

Part II

   Corporation Comments and OIG Evaluation                    II-1

   Corporation Comments                                       II-2
      Part I

Report by KMPG LLP
               Material Loss Review
             Tennessee Commerce Bank
                Franklin, Tennessee




Prepared for the
Federal Deposit Insurance Corporation
Office of Inspector General

KPMG LLP
1676 International Drive
McLean, VA 22102
                           Table of Contents

Why a Material Loss Review Was Performed                                I-2

Background                                                              I-2

Causes of Failure and Material Loss                                      I-5
  Board and Management Oversight                                         I-6
  High Growth and Concentrations                                         I-8
  Lending Practices                                                    I-11
  Decline in the Loan Portfolio                                        I-15
  Funding Strategies                                                   I-17

The FDIC’s Supervision of Tennessee Commerce Bank                      I-19
  Supervisory History                                                  I-19
  Supervisory Response to Key Risks                                    I-23
  Capital Purchase Program                                             I-31
  Implementation of PCA                                                I-33
  Supervisory Lessons Learned                                          I-35

Appendices
1: Objectives, Scope, and Methodology                                  I-38
2: Glossary of Terms                                                   I-42
3: Acronyms                                                            I-47

Tables
1: Selected Financial Information for TCB, 2006-2011                     I-5
2: TCB’s C&I Concentrations Compared to Peer                             I-9
3: Composition of TCB’s Commercial Loan Portfolio by Lending Program     I-9
4: Examination History of TCB, 2007-2011                               I-20
5: TCB’s Capital Levels                                                I-34


Figures
1: TCB’s Loan Portfolio Structure                                        I-4
2: Composition and Growth of TCB’s Loan Portfolio, 2004-2011             I-8
3: TCB’s Net Charge-offs on Loans and Leases, 2007-2011                I-16
4: TCB’s Total Risk-Based Capital and Growth Rate Compared to Peer     I-17
5: TCB’s Net Non-Core Funding Dependence Ratio Compared to Peer        I-18
                            KPMG LLP
                            1676 International Drive
                            McLean, VA 22102


September 13, 2012

Stephen M. Beard
Deputy Inspector General for Audits and Evaluations
Federal Deposit Insurance Corporation
3501 Fairfax Drive
Arlington, VA 22226

Material Loss Review Report on the Failure of Tennessee Commerce Bank,
Franklin, Tennessee

Dear Mr. Beard:

The FDIC Office of Inspector General (OIG) contracted with KPMG LLP (KPMG) to
conduct a material loss review (MLR) of the Tennessee Commerce Bank (TCB or the
bank), Franklin, Tennessee. This performance audit report details the results of our
review. The objectives of this performance audit were to (1) determine the causes of
TCB’s failure and the resulting material loss to the Deposit Insurance Fund (DIF) and
(2) evaluate the FDIC’s supervision of TCB, including the FDIC’s implementation of the
Prompt Corrective Action (PCA) provisions of section 38 of the Federal Deposit
Insurance Act (FDI Act).

Our report contains no recommendations. Instead, as major causes, trends, and common
characteristics of institution failures are identified in MLRs, the FDIC OIG communicates
those to FDIC management for its consideration. As resources allow, the FDIC OIG
conducts more comprehensive reviews of specific aspects of the FDIC’s supervision
program and makes recommendations as warranted.

We conducted our performance audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS). These standards require that we plan and
conduct the performance audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The information included in this report was obtained during our fieldwork, which
occurred during the period April 2012 through June 2012.

Very truly yours,




                                                     I-1

                            KPMG LLP is a Delaware limited liability partnership,
                            the U.S. member firm of KPMG International Cooperative
                            (“KPMG International”), a Swiss entity.
Why a Material Loss Review Was Performed
Section 38(k) of the FDI Act, as amended by the Dodd-Frank Wall Street Reform and
Consumer Protection Act (the Financial Reform Act), provides, in general, that if the DIF
incurs a material loss with respect to an insured depository institution, the Inspector
General of the appropriate federal banking agency shall prepare a report to that agency,
reviewing the agency’s supervision of the institution. Section 38(k), as amended,
establishes an MLR threshold of $150 million for losses that occur for the period
January 1, 2012 through December 31, 2013. The FDI Act requires that the report be
completed within 6 months after it becomes apparent that a material loss has been
incurred.

On January 27, 2012, the Tennessee Department of Financial Institutions (TDFI) closed
TCB, and the FDIC was appointed receiver. The FDIC’s Division of Finance notified the
OIG on March 13, 2012 that TCB’s total assets at closing were $1.0 billion and that the
estimated loss to the DIF was $416.8 million (or 42 percent of TCB’s total assets). The
FDIC OIG engaged KPMG to conduct an MLR of TCB. The performance audit
objectives were to (1) determine the causes of TCB’s failure and the resulting material
loss to the DIF and (2) evaluate the FDIC’s supervision of TCB, including the FDIC’s
implementation of the PCA provisions of section 38 of the FDI Act. Appendix 1,
Objectives, Scope, and Methodology, describes the procedures used by KPMG to conduct
this performance audit.1 In addition, Appendix 2 provides a glossary of terms, and
Appendix 3 contains a list of acronyms used in this report.

Background
TCB commenced operations on January 14, 2000. The institution’s corporate and
banking offices were located in Franklin, Tennessee, which is about 15 miles south of
Nashville. The bank was wholly owned by the Tennessee Commerce Bancorp, Inc.
(Bancorp), a publicly traded, one-bank holding company. As of December 2011, a single
shareholder controlled about 10 percent of Bancorp’s outstanding stock and TCB’s
directorate and officers collectively owned or controlled an additional 9.9 percent of the
stock. The remainder of Bancorp’s stock was widely held. In addition, TCB owned
27 percent of the stock in Commerce Bancshares, Inc.—the parent holding company of
the Peoples State Bank of Commerce (Peoples), Nolensville, Tennessee—and 46 percent
of the stock in Farmers Bancorp, Inc.—the parent of the Farmers Bank of Lynchburg
(Farmers), Lynchburg, Tennessee, which failed on June 15, 2012. After analyzing the
circumstances pertaining to TCB’s holdings in Peoples and Farmers, the FDIC




1
  In conducting this performance audit and preparing the report, KPMG relied primarily on TCB records
and on information provided by the OIG, the FDIC’s Division of Risk Management Supervision (RMS),
and the Division of Resolutions and Receiverships (DRR). Within the FDIC, DRR has primary
responsibility for resolving failing and failed financial institutions and managing the resulting receiverships.
                                                      I-2
determined that TCB was not commonly controlled with the institutions and, therefore,
did not subject them to cross-guarantee liability when TCB failed.2

TCB’s assets were centered in its loan portfolio, which totaled $1.17 billion as of
December 31, 2009, a point at which loan growth was slowing and the FDIC had
determined the bank to be in “troubled condition.” The loan portfolio consisted of
55 percent commercial and industrial (C&I) loans, 38 percent real estate loans (both
commercial and consumer), and 7 percent consumer and credit card loans as of that date.
Although TCB offered a full range of banking services and products, its operations
focused on a nontraditional “Business Bank” strategy that emphasized banking services
for small- to medium-sized businesses, entrepreneurs, and professionals in the bank’s
local market of middle Tennessee, which consisted of a 250 mile radius around the
Nashville metropolitan area. The strategy did not target retail customers or involve
competition with other banks based on the traditional definition of “convenience.” For
example, the bank did not maintain a branch network, a teller line, a drive-through
window, or extended banking hours at its main office. TCB’s customized business
lending consisted of such things as providing lines of credit and term loans secured by
accounts receivable, inventory, equipment, and real estate. The bank also made
commercial real estate (CRE) loans, including acquisition and construction loans for
business properties and term loan financing of CRE.

A large portion of TCB’s lending activities included collateral-based financing to national
and regional equipment vendors and financing companies through two indirect national
market funding programs, one of which focused on large loans and the other on small
loans. Under both programs (which are described below), transactions were originated by
third parties, such as equipment vendors or financial services companies, that provided
TCB with borrower financial information and arranged for the borrowers’ execution of
loan documentation.3 As of December 31, 2009, TCB’s indirect national market funding
programs accounted for about 25 percent of the bank’s $1.17 billion loan portfolio.

       Indirect (Large Loans). Using a network of financial service companies and
        vendor partners, the bank provided financing to national middle-market and
        investment-grade companies. As of December 31, 2009, the average loan size
        under this program was $389,000. Collectively, the bank’s loans under this
        program accounted for about 11 percent of the loan portfolio at year-end 2009.

       Indirect (Small Loans). Using a network of financial service companies and
        vendors located in Tennessee, Alabama, Georgia, California, and Michigan, the
        bank financed business assets that were less than $150,000 at origination. As of
        December 31, 2009, the average loan size under this program was $45,000.


2
  Under Section 5(e) of the FDI Act, an insured depository institution is liable for any loss that the FDIC
incurs, or reasonably expects to incur, in connection with resolving a commonly controlled institution. This
is generally referred to as “cross-guarantee liability.”
3
  While these transactions were originated and executed by third parties, indirect funding was subject to
TCB’s minimum credit scores and documentation standards.
                                                    I-3
        Collectively, the bank’s loans in this program accounted for about 14 percent of
        the loan portfolio at year-end 2009.

In addition to its main office in Franklin, TCB operated three loan production offices in
Alabama, Minnesota, and Georgia prior to the downturn in its lending markets. By
January 2011, all three loan production offices had closed. TCB also originated and sold
loan packages and loan participations to increase its earnings and manage its exposure to
borrowers. Figure 1 illustrates the structure of TCB’s loan portfolio and classifications as
described and referenced throughout this report.

Figure 1: TCB’s Loan Portfolio Structure




Source: KPMG’s analysis of TCB’s Annual Reports on Form 10-K filed with the Securities and Exchange
Commission (SEC).

Table 1 provides details on the bank’s financial condition as of December 31, 2011, and
for the 5 preceding years. As reflected in the table, TCB continued to grow its loan
portfolio through 2010, with a majority of the portfolio focused on C&I lending. The
bank also relied heavily on Internet and brokered deposits to make loans and provide for
liquidity.




                                                 I-4
Table 1: Selected Financial Information for TCB, 2006-2011
  Financial Data ($000s)     12/31/11     12/31/10      12/31/09     12/31/08    12/31/07   12/31/06
 Total Assets               $1,009,154   $1,444,487    $1,372,861   $1,210,553   $899,068   $625,189
 Total Loans                $897,186     $1,229,811    $1,171,301   $1,036,725   $794,322   $545,517
 Annual Loan Growth Rate      (27%)         5%              13%       31%          46%         56%
 Total Deposits             $1,037,716   $1,306,774    $1,247,085   $1,088,738   $815,830   $566,875
 Brokered Deposits/Total
                             16.43%        9.09%           12.92%    10.14%      12.31%       12.86%
 Liabilities
 Noncurrent Loans/Gross
                             14.16%        4.54%           1.75%      2.93%       1.06%       0.66%
 Loans
 Net Interest Margin          2.80%        4.10%           3.75%      3.51%       3.74%       4.04%
 Return on Average Assets   (12.00%)       0.43%        (0.26%)       0.98%       1.07%       1.12%
Source: Uniform Bank Performance Reports (UBPR) for TCB.


Causes of Failure and Material Loss
TCB failed primarily because its board of directors (Board) and management did not
effectively manage the risks associated with the bank’s sustained high growth in C&I
lending. Notably, TCB had a significant concentration in an economically sensitive and
specialized segment of the C&I market pertaining to the transportation industry. TCB’s
lending in this area included loans to leasing companies and lease brokers for the
financing of trucks, buses, and other commercial use vehicles. However, TCB’s
underwriting, administration, monitoring, and collection procedures for these and other
C&I loans was not adequate. Contributing to the bank’s credit risk exposure were large
and complex borrowing relationships that were not effectively managed. Further, TCB’s
funding strategy for sustaining loan growth and maintaining liquidity involved heavy
reliance on non-core funding sources, such as Internet and brokered deposits, and capital
injections from its holding company. Finally, TCB did not maintain capital at levels that
were commensurate with its risk profile.

In 2007, TCB began to experience problems with its loans in the transportation industry
due to the bank’s lax lending practices and a softening economy. The credit quality of
TCB’s loan portfolio continued to decline in 2008 and accelerated as the economy
deteriorated. However, TCB continued its high growth strategy, reporting that it
originated over $90 million in new loans during the first quarter of 2009. In total, TCB
originated or renewed about $400 million in loans from 2009 until its failure. The bank
ultimately charged off about $64 million of the $400 million amount as loss. TCB’s
Board and management failed to recognize problems and losses in the bank’s loan
portfolio in a timely manner or to take appropriate action to address problems as they
developed. TCB also engaged in unusual lending practices, such as insurance premium
financing, and made a number of particularly risky loans to individuals in the banking
sector that were secured by the stock of other banks in the years before its failure. These
loans contributed to the bank’s losses.


                                                 I-5
TCB’s final Consolidated Reports of Condition and Income (Call Report) indicated that
the bank lost more than $165 million during 2011 and had negative equity capital. The
TDFI closed TCB on January 27, 2012 because the institution was unable to raise
sufficient capital to support safe and sound banking operations.

Board and Management Oversight
The FDIC’s Risk Management Manual of Examination Policies (Examination Manual)
states that the quality of an institution’s management, including its Board and executive
officers, is perhaps the single most important element in the successful operation of an
institution. According to the Examination Manual, the Board has overall responsibility
and authority for formulating sound policies and objectives for the institution and for
effectively supervising the institution’s affairs. Executive officers, such as the President
and Chief Executive Officer and the Chief Financial Officer (CFO), have primary
responsibility for managing the day-to-day operations and affairs of the bank. Further,
ensuring appropriate corrective actions to regulatory concerns is a key responsibility of
the Board.

TCB’s Board and executive management team did not provide effective oversight and
management of the institution. As discussed more fully in subsequent sections of this
report, the Board and management implemented an unconventional and risky Business
Bank strategy that exposed TCB to significant operational and credit risk in the event of a
sustained downturn in the economy. Specifically, TCB:

       emphasized high loan growth and specialized lending without adequate risk
        management practices;

       developed large and complex borrowing relationships that exposed the bank to
        significant risk and credit losses;

       engaged in unusual lending practices, such as life insurance premium financing,
        without appropriately analyzing the associated risks or properly documenting the
        deliberations of the Board or management’s rationale for conducting such
        practices;

       did not maintain capital at levels that were commensurate with the bank’s risk
        profile; and

       executed a funding strategy for sustaining loan growth and maintaining liquidity
        that involved heavy reliance on non-core funding sources, particularly Internet
        and brokered deposits.

Throughout its history, TCB stressed operating efficiencies, as evidenced by the bank’s
efficiency ratio that placed TCB in the top 5 percent of its peer group average between


                                             I-6
2007 and 2009.4 During that same period, TCB’s ratio of average assets per employee
placed the bank in the top 3 percent of its peer group. Such metrics indicate that TCB
was able to maintain low overhead expenses in relation to its revenue due to various
factors, such as the lack of expenses associated with maintaining a branch network.
However, these metrics may also have been an indication of inadequate personnel to
manage the bank’s specialized lending operations.

TCB’s Board and management also failed to adequately address concerns identified
during examinations of the bank. For example, the Board was reluctant to enter into a
Memorandum of Understanding (MOU) with regulators to address risk management
issues identified during the June 2009 examination and “strongly disagreed” with many of
the findings in the August 2010 examination. The Board and management were also
reluctant to accept the advice of external loan reviewers. Further, examination reports of
TCB noted apparent violations of laws and contraventions of statements of policy
pertaining to appraisals, legal lending limits, false and/or misleading statements, the
Allowance for Loan and Lease Loss (ALLL) methodology, loans to a financial
subsidiary, and the purchase of a large speculative asset. Such apparent violations and
contraventions reflected negatively on TCB’s Board and management.

Dissension among Board members and executive officers also presented distractions from
the institution’s financial problems at critical times. In July 2007, three independent
Board members resigned as a result of their disagreement with the Board’s action and
policy regarding executive compensation and the manner in which the vote was taken to
approve the policy. In late 2007, the CFO alleged material misstatements in the bank’s
financial reporting and misconduct by bank employees that was condoned or ignored by
executive management.5 RMS officials advised us that by 2011, the Board was divided
between four independent directors and four executive officers, hindering the bank’s
ability to move forward and correct its many problems.

TCB’s Board and management failed to appropriately adjust to changes in economic
conditions. For example, the Board and management continued to expand the loan
portfolio with loans of questionable repayment capacity despite a slowing economy when
their peers were restricting loan growth.6 As indicated by TCB management in a July
2009 press release, “We added $39.6 million in net loans in the second quarter... We
believe Tennessee Commerce continues to attract new customers displaced by the larger
banks who have slowed lending in recent quarters.”


4
  The efficiency ratio is a measure of total overhead expense expressed as a percentage of net interest
income plus noninterest income. A low efficiency ratio is generally considered to be favorable.
5
  Refer to the 2008 Supervisory Activities section of this report for details on the supervisory response to the
CFO’s allegations.
6
  Institutions are assigned to 1 of 15 peer groups based on asset size, number of branches, and whether the
institution is located in a metropolitan or non-metropolitan area. From 2008 to 2011, TCB’s peer group
consisted of insured commercial banks having assets between $1 billion and $3 billion. From 2005 to 2007,
TCB’s peer group consisted of insured commercial banks having assets between $300 million and
$1 billion. For 2004, TCB’s peer group consisted of insured commercial banks having assets between
$100 million and $300 million.
                                                      I-7
High Growth and Concentrations
After opening in 2000, TCB embarked on a sustained high growth strategy centered in
C&I loans. While many of TCB’s C&I loans were made in its local market of middle
Tennessee, a large amount were made in out-of-territory areas throughout the United
States. The bank’s assets, which totaled $97 million after two years of operations, grew
by 1,343 percent to $1.4 billion by year-end 2010. Together with weak credit risk
management practices (as described later), TCB’s significant exposure to certain
segments of the C&I industry made the bank vulnerable to a sustained economic
downturn. Figure 2 illustrates the general composition of TCB’s loan portfolio in the
years preceding the institution’s failure and highlights the high growth strategy that
focused on C&I loans.

Figure 2: Composition and Growth of TCB’s Loan Portfolio, 2004-2011
                                                $1,400


                                                                                                           $1,230
                                                                                                  $1,172
                                                $1,200

                                                                                         $1,037
     Total Loans and Leases (Millions)




                                                $1,000
                                                                                                                    $898

                                                                                 $795
                                                 $800




                                                 $600
                                                                         $546



                                                 $400
                                                                  $349


                                                           $217
                                                 $200




                                                     $0
                                                           2004   2005   2006     2007    2008    2009     2010     2011
                                         All Other Loans   $20    $26    $40      $70     $100    $116     $151     $111
                                         C&I               $140   $234   $343    $469     $576    $637     $636     $447
                                         Other CRE         $34    $51    $88     $137     $179    $277     $326     $235
                                         ADC               $23    $38    $75     $119     $182    $142     $117     $105

Source: KPMG’s analysis of Call Reports for TCB.
Note: Some total loan amounts do not agree to Table 1 due to rounding.

As shown in Table 2, TCB had C&I loan concentrations as a percentage of total capital
that significantly exceeded the bank’s peer group averages. TCB’s C&I portfolio
consisted of loans secured by a wide range of collateral, with large concentrations in
tractors/trailers/trucks, accounts receivables and inventory, equipment, and assignments
of leases and notes.




                                                                                I-8
Table 2: TCB’s C&I Concentrations Compared to Peer
Year Ended       Bank C&I as a Percent            Peer Group C&I as a            Bank Percentile
                    of Total Capital             Percent of Total Capital
    2004                    532                              112                         98
    2005                    612                              102                         99
    2006                    576                              100                         99
    2007                    539                              102                         99
    2008                    477                              117                         99
    2009                    480                              109                         99
    2010                    438                              100                         99
Source: UBPRs for TCB.
Note: Data under the percentile column represents the percentile ranking or percentage position of TCB
relative to other banks in its peer group.

TCB defined its industry concentrations as an exposure to any industry sector of more
than 25 percent of Tier 1 Capital and 7 percent of the loan portfolio. Based on these
criteria, TCB’s industry concentrations included transportation and warehousing,
manufacturing, finance and insurance, construction, CRE, and healthcare. TCB’s
exposure to C&I loans presented elevated risk to the bank due to the sensitivity of C&I
loans to the economy and the limited marketability of specialized collateral securing
many of the bank’s C&I loans.

Commercial Lending Programs. As described in the Background section of this report,
TCB extended credit to customers through a direct lending program within the bank’s
local market as well as through two indirect national market funding programs. Table 3
provides a breakdown of TCB’s commercial loan portfolio by lending program type from
2004 to 2010.

Table 3: Composition of TCB’s Commercial Loan Portfolio by Lending Program
  Lending Program
                            2010        2009        2008           2007       2006            2005        2004
      ($000s)
 Direct lending           416,519     351,933      267,542     193,943       151,692       94,742        60,471
 Indirect lending
   Large                   94,292     130,573      148,538     130,583        88,569       52,144         29,010
   Small                  137,376     166,969      173,438     153,140       113,735       87,062         50,318
 Total                    648,187     649,475      589,518     477,666       353,996      233,948        139,799
 Annual Growth Rate         0%         10%          23%         35%            51%          67%            59%
Source: TCB’s Annual Reports on Form 10-K filed with the SEC.

Large Borrowing Relationships. TCB’s risk profile was further elevated by large and
complex borrowing relationships that lacked adequate underwriting and administration.
A December 2011 loan portfolio valuation report performed by a third party noted that
TCB’s 20 largest borrowing relationships accounted for over 26 percent of the bank’s
loan portfolio. These relationships presented significant risk of loss in the event of

                                                   I-9
deterioration of a single large relationship. Examples of such borrowing relationships
follow.

       The June 2009 joint examination report noted that 6 borrowing relationships
        accounted for $32.4 million (or 44 percent) of the $73.8 million in adversely
        classified loans at the examination. Industries pertaining to these relationships
        included transportation, construction, and manufacturing. Each relationship
        possessed weaknesses, such as inadequate cash flow or debt service capacity,
        past-due performance, and marginal collateral protection.

       TCB started a lending relationship (referred to in this report as Relationship A)
        as early as 2007 with a local borrower that grew into an interconnected, complex
        set of at least 17 loans to various entities related to the borrower. Some of the
        loans were loan participations purchased by TCB from entities related to the
        borrower, and a majority of the loans was secured by stock of the various entities
        affiliated with the borrower. These related interests were first identified as such
        during the April 2010 joint visitation, which showed a total exposure for
        Relationship A of $47.5 million. During the September 2011 joint examination,
        examiners determined that TCB’s exposure to Relationship A had grown to a
        total of $65 million, or 57 percent of the bank’s capital, surplus, and undivided
        profits. As a result of poor credit decisions, weak underwriting, and inadequate
        monitoring, examiners concluded that the entire $65 million needed to be
        adversely classified. Of this amount, $30.2 million was loss. Relationship A
        accounted for 24 percent of the $273.8 million in total loans identified for
        classification (and 40 percent of the $76.3 million in loss classifications) at the
        September 2011 joint examination.7

Nontraditional Lending. TCB also engaged in nontraditional lending arrangements,
such as insurance premium financing, and made a number of particularly risky loans to
individuals in the banking sector and secured by the stock of other banks (as described
later). Some examples follow.

       Between March 2009 and May 2010, TCB originated loans that represented
        100 percent funding of premiums on large life insurance policies which were
        owned by irrevocable life insurance trusts established by the insured individuals.
        Court decisions indicated that neither TCB, nor any successor beneficiary, could
        collect on the death benefits associated with the policies, upholding the
        insurance companies’ argument that they would not have sold the life insurance
        policies if they knew that TCB had financed the initial premiums for the insured
        parties. TCB charged off all $5.2 million of these loans.

7
 Pursuant to the bank’s authority to collect a debt previously contracted (DPC) as authorized under
Tennessee Law, TCA 45-2-607, in September 2011, TCB exercised its rights to foreclose on the stock of
Commerce Bancshares, Inc. (parent of Peoples) and Farmers Bancorp, Inc. (parent of Farmers), that had
secured loans to the borrower. Based upon review of examination documentation and correspondence, we
found no evidence that the acquisition of bank stock through the DPC transaction had an impact on the
TDFI’s and FDIC’s decision to close TCB.
                                                I-10
        In December 2009, TCB established a limited liability company (LLC) for the
         purpose of purchasing, holding, and administering a life insurance policy on a
         guarantor whose defaulted loans resulted in a $4.1 million loss to the bank. The
         bank’s actions were in apparent violation of the law as the LLC was considered a
         financial subsidiary of the bank and was prohibited from purchasing life
         insurance for speculation. Based upon our discussion with RMS examination
         officials, the bank’s strategy of recovering from the losses on the original loans
         proved to be flawed and led to losses totaling at least $4.7 million.8

        TCB made a number of poorly underwritten loans to independent members of
         the Board which, although not a primary cause of failure, accounted for at least
         $3.3 million in losses incurred at the time of TCB’s failure.

Lending Practices
Ineffective credit underwriting, administration, monitoring, and collection practices
contributed to the asset quality problems that developed at TCB when the economy and
the bank’s target lending markets deteriorated. As discussed below, TCB’s management
did not administer the loan portfolio consistent with internal loan policy or industry
standards. The April 2007 and April 2008 examination reports indicated that TCB’s
lending practices were generally satisfactory, although the reports included some
recommended improvements. However, subsequent examination reports became
increasingly critical of the bank’s lending practices as the bank’s financial condition
deteriorated and weak risk management practices became more apparent and widespread.
Examples of TCB’s weak lending practices follow.

Loan Underwriting. FDIC and/or TDFI examiners noted the following.

        High loan-to-value (LTV) positions for many loans resulted in thin collateral
         protection margins, and LTV limits were not established on loans secured by
         publicly traded or closely held stock (June 2009 and August 2010 examinations).

        There was a lack of perfection of security interests in collateral and/or an ability to
         substantiate collateral values for indirect small loans (June 2009 examination).




8
  Financial Institution Letter (FIL)-127-2004, entitled Interagency Statement on the Purchase and Risk
Management of Life Insurance, states that the purchase of life insurance on a borrower is not an appropriate
mechanism for effecting a recovery on an obligation that has been charged off, or is expected to be charged
off, for reasons other than the borrower’s death. In the case of a charged-off loan, the purchase of life
insurance on the borrower does not protect the institution from a risk of loss since the loss has already
occurred. Therefore, the institution does not need to purchase insurance, and acquiring insurance that an
institution does not need may subject the institution to unwarranted risks, which would be an unsafe and
unsound banking practice.
                                                   I-11
      The bank’s use of personal guarantees was inadequate or ineffective. For
       example, guarantors did not always provide guarantees or provided only partial
       guarantees (August 2010 examination).

      There was a lack of detail regarding any analysis of cash flows and/or repayment
       capacity in credit memoranda, and a lack of, or inadequate, global cash flow
       analyses (August 2010 and September 2011 examinations).

      Appraisals were either not obtained, obtained after loans were funded, or were
       outdated and prepared by the borrower (August 2010 examination).

      Loans extended to individuals involved in banking or secured by the stock of
       other financial institutions exhibited particularly poor underwriting and resulted in
       significant losses. A number of these loans contained little, if any, documented
       financial analysis before the loans were made (August 2010 examination).

      Additional credit was extended to borrowers after their lines had reached the
       maximum limit (August 2010 and September 2011 examinations).

The December 2011 loan portfolio valuation report, referenced earlier in this report, noted
that TCB’s underwriting guidelines and loan terms were not consistent with industry
standards, citing examples of high LTV positions and poor loan monitoring processes.
Further, bank management had established a standardized credit approval process for the
indirect national market small loan portfolio which was subject to less stringent
underwriting guidelines than the remainder of the loan portfolio.

Credit Administration. FDIC and/or TDFI examiners noted the following.

      Documented reviews and analyses of interim or annual financial data were not
       adequate (April 2007 examination).

      Certain portions of the loan policy were too general and brief and needed
       enhancement. Of particular note were policies pertaining to collection procedures
       (April 2007 examination).

      Management was lax in placing loans on nonaccrual in line with the established
       loan policy (August 2010 examination).

      Several large loans had been restructured with concessions, resulting in reduced
       payments, and were not reported as a Troubled Debt Restructuring (TDR). Loans
       that qualify as TDRs are required to be evaluated for impairment. Failure to
       properly identify TDRs could result in misstatements to the bank’s ALLL
       allocation (August 2010 examination).



                                           I-12
       In general, loan officers did not appear to have an adequate working knowledge of
        their borrowers (August 2010 examination).

       Monitoring and valuation of collateral was inadequate (August 2010 and
        September 2011 examinations).

       Loan proceeds were used for purposes other than their stated purpose or
        management was unaware of what the loan proceeds were used for (September
        2011 examination).

Loan Quality Monitoring and the ALLL Methodology. TCB’s loan grading system
was not appropriately applied, resulting in numerous and large credit downgrades during
examinations. The August 2010 and September 2011 examination reports noted that, in
many cases, management was aware of the declining ability of borrowers to service their
debt, but appeared reluctant to downgrade loans to an appropriate loan grade. This had
the effect of delaying recognition of problem loans and not adequately providing for
known credit losses via the ALLL.

According to the Interagency Policy Statement on the Allowance for Loan and Lease
Losses, the ALLL represents one of the most significant estimates in an institution’s
financial statements and regulatory reports. As a result, each institution is responsible for
developing, maintaining, and documenting a comprehensive, systematic, and consistently
applied process for determining the ALLL. Management failed to appropriately identify,
measure, and provide for the level of deterioration in the loan portfolio in 2010 and 2011.
Specifically, examiners noted during the August 2010 examination that an additional
provision of at least $16.3 million to the ALLL was warranted to provide for the risk in
the loan portfolio. The bank also needed to adopt a more robust Financial Accounting
Standard (FAS) 5 and FAS 114 methodology and use a shorter time frame for calculating
historical loan losses to reflect the risk in the loan portfolio and the environment in which
the bank was operating.9

Examiners noted at the September 2011 joint examination that the ALLL was severely
deficient in relation to the level of risk in the loan portfolio and that an additional
provision of $80.2 million was warranted. In addition, the bank’s FAS 114 impairment
analyses were either inadequately supported, inadequately measured, or used invalid
assumptions. Further, management failed to recognize credit losses in a timely manner,
which resulted in an insufficient FAS 5 ALLL allocation since the calculation was based
on historical losses. The bank’s external auditors also noted in 2011 that controls over
estimating the ALLL were not adequate. An underfunded ALLL can have the effect of
delaying the recognition of deterioration in the credit quality of the loan portfolio.




9
 Accounting Standard Codification (ASC) Subtopics 450-20 (formerly Statement of FAS No. 5) and ASC
310-10-35 (formerly Statement of FAS No. 114) provide accounting guidance for loss contingencies on a
pool basis and the impairment of loans on an individual basis, respectively.
                                                I-13
Repossession and Disposition of Collateral Assets. TCB’s C&I lending included
loans to borrowers who were referred to the bank by third parties—primarily leasing
companies and lease brokers—under the bank’s indirect funding programs. These loans
were often structured such that the borrower was the lessor (or owner of the equipment—
typically transportation vehicles—under the lease). The loan agreements transferred the
borrower’s responsibility for repayment to the lessee and, depending upon the loan
agreement, the borrower also guaranteed the debt. These loans were often secured by a
Security Agreement, which assigned TCB a security interest in the lease, the lease
payments, and the equipment under the lease.

Such lending has long been viewed by credit professionals as a specialized area with
unique risks. Such risks include heavy reliance on cash flows due to collateral dissipation
resulting from obsolescence, poor collateral/asset liquidity due to limited markets and/or
marketability, and exposure to economic factors that can significantly alter the repayment
capacity of obligors and quickly lessen recovery potential. Further, the likelihood of loss
on such loans quickly increases as payment delinquency becomes protracted. TCB’s own
Annual Reports on Form 10-K stated, “This lending causes us to have somewhat different
risks than those typical for community banks generally. Our loan portfolio is somewhat
geographically diverse, and as a result the loan collateral is also disbursed geographically.
This may result in longer time periods to locate collateral and higher costs to dispose of
collateral in the event that the collateral is used to satisfy the loan obligation.”

TCB had no repossessed assets as of December 31, 2006. However, by the close of 2007,
the bank had repossessed assets of about $7 million consisting primarily of trucks that
were leased through the bank’s indirect funding programs. Management attributed the
high level of repossessions to increases in fuel costs and the resulting impact on the
trucking industry. In addition, due to the structure of the leases through the brokers, the
bank was not becoming aware of the problems until the leases were 90 to 120 days past
due. Examiners noted that a significant portion of the bank’s repossessions were held in
excess of the 6-month maximum period permitted under Tennessee law.10 TCB
subsequently formed a subsidiary called the Tennessee Commercial Asset Services, Inc.,
to hold repossessed assets beyond the 6-month period allowed by Tennessee law and
assist the bank in selling and collecting proceeds from repossessed assets.

As of July 2010, repossessions totaled $28.3 million, of which $26.4 million consisted of
trucks and over-the-road equipment. In addition, the bank had 381 loans secured
primarily by tractor/trailers that were over 180 days past due and the collateral had not yet
been repossessed. A total of 153 of the 381 loans were over 300 days past due.

TCB did not have adequate loss mitigation policies and procedures to monitor the
repossession and timely disposition of collateral. TCB often relied on various third-party
dealers and brokers for payment collection and collateral repossession services. It does
not appear that the bank adequately understood, assessed, or monitored the risk exposure
10
   Tennessee Code Annotated, Section 45-2-607, states that all property acquired in satisfaction of a loan
except real property shall be sold within 6 months or such additional period as the TDFI Commissioner may
allow.
                                                  I-14
related to these third-party relationships. For example, we observed an instance in which
a single broker was servicing over 1,100 leases valued at over $58 million, yet the broker
had only 4 employees performing collection services. This suggests an inadequate
infrastructure that may have limited the broker’s ability to support and service a labor-
intensive lease portfolio on behalf of TCB. To further illustrate management’s
inadequate monitoring of broker relationships, an examiner loan review of a broker
relationship at the 2009 joint examination noted numerous deficiencies, including but not
limited to, a lack of a physical on-site collateral inspection, a lack of a formalized
agreement between TCB and the broker, and a potential conflict of interest involving used
tractor/trailer sales and inventory.

We also noted instances during 2011 in which TCB disposed of repossessed collateral by
originating a new loan to a new borrower secured by the repossessed collateral. This
practice resulted in numerous loans secured by the same collateral. In many cases, a
portion of the funds to finance the new loan were applied to the balance of the original
defaulted loan secured by the collateral, leaving a residual balance on the original loan
that the bank did not recognize as a loss in a timely manner. While it is possible that the
bank may have continued to pursue deficiency judgments on the original borrower and
collections from guarantors, a prudent banking practice would have been to recognize the
loss when the collection was deemed unlikely and reporting any future collections as a
recovery. The net impact of this practice resulted in at least $22 million in residual
balances on loans that should have been recognized as losses.11

Decline in the Loan Portfolio
At the time of the June 2009 joint examination, TCB’s adversely classified items totaled
approximately $95 million, or 75 percent of Tier 1 Capital plus the ALLL.
Approximately 44 percent of this amount pertained to six large borrowing relationships
and 39 percent pertained to small loans, many of which consisted of equipment lending,
truck lease financing, and small ticket commercial lending. Adversely classified items
increased to $239.5 million (or 168 percent of Tier 1 capital plus the ALLL) at the
August 2010 joint examination, and to $298.9 million (or 505 percent of Tier 1 Capital
plus the ALLL) during the September 2011 joint examination.

A third-party evaluation found that 14 percent of TCB’s loan portfolio was
nonperforming as of November 2011. TCB’s final Call Report for December 31, 2011
reported that 26 percent of the C&I portfolio and 25 percent of the CRE portfolio was
greater than 30 days past due or in non-accrual status. These classifications, in addition
to an increase in past due loans, posed a significant risk to the institution and resulted in
large loan losses. As reflected in Figure 3, loan charge-offs increased significantly in
2011, with a majority of the charge-offs pertaining to C&I loans, indicating a failure to
recognize losses in a timely manner and reflect those losses within the appropriate
reporting period.

11
  These amounts were identified by DRR in November 2011 as part of their due diligence and asset
valuation review for the bank.
                                                 I-15
Figure 3: TCB’s Net Charge-offs on Loans and Leases, 2007-2011

                             $120,000
   Net Charge-Offs ($000s)


                             $100,000

                              $80,000

                              $60,000

                              $40,000

                              $20,000

                                  $0
                                        2007     2008      2009      2010      2011
                                CRE      $32     $389      $3,264   $1,600    $14,950
                                C&I     $3,260   $5,620   $22,462   $16,853   $95,840
                                Other    $17      $89      $358      $415     $3,567

Source: KPMG’s analysis of Call Reports.

Based on our analysis of documentation pertaining to TCB’s failure, it appears that a
majority of the C&I losses consisted of direct loans and indirect small loans. Of the
approximately $169.1 million in total charge-offs booked throughout the history of the
bank’s operations, $77.4 million (or 46 percent) were classified as direct commercial
loans and were comprised of 121 loans, and $58.5 million (or 35 percent) were
classified as indirect small loans and were comprised of 3,694 loans. Of those charge-
offs, approximately $49.1 million (or 63 percent) of the direct loans and $29.7 million
(or 51 percent) of the indirect small loans were originated in 2008 and 2009, a time
period in which restrained loan growth would have been a prudent strategy given the
weakness in the overall economy.

Capital Levels Relative to Loan Growth. The Examination Manual states that
institutions should maintain capital commensurate with the level and nature of risks to
which they are exposed and the ability of management to identify, measure, monitor,
and control those risks. Further, the amount of capital necessary for safety and
soundness purposes may differ significantly from the amounts needed to maintain a
Well Capitalized or Adequately Capitalized position for purposes of PCA.

TCB relied on its parent holding company for capital injections from public stock
offerings and the issuance of Trust Preferred Securities (TPS) to support loan growth and
to maintain a Well Capitalized status. As described later, TCB also used capital obtained
from the United States Department of the Treasury’s (Treasury) Troubled Asset Relief
Program (TARP) Capital Purchase Program (CPP) to sustain its loan growth and provide



                                                          I-16
for liquidity.12 However, TCB did not maintain capital levels that were commensurate
with its risk profile. As reflected in Figure 4, TCB’s risk profile continued to increase as
a result of high annual growth rates in loans and leases (including a substantial exposure
to economically sensitive and specialized C&I loans) compared to their peer group, while
the bank’s level of Total Risk-Based Capital was below its peer group average. Had TCB
maintained higher capital ratios, its loan growth may have been constrained and losses to
the DIF may have been mitigated to some extent.

Figure 4: TCB’s Total Risk-Based Capital and Growth Rate Compared to Peer

                       120

                       100
     Bank Percentile




                       80

                       60

                       40

                       20

                        0
                                 2005       2006        2007     2008      2009      2010

                             Total Risk-Based Capital      Net Loans & Leases Growth Rate

Source: KPMG’s analysis of UBPRs for TCB.


Funding Strategies
TCB relied heavily on non-core funding sources, particularly time deposits above the
insurance limit, Internet deposits, and brokered deposits, to fund its loan growth and
maintain liquidity. When properly managed, non-core funding sources offer a number of
important benefits, such as ready access to funds in national markets when core deposit
growth in local markets lags planned asset growth. However, non-core funding sources
also present potential risks, such as increased volatility when interest rates change and
difficulty accessing such funds when the financial condition of an institution deteriorates.
In addition, institutions become subject to limitations on the use of brokered deposits and
the interest rates they can offer on deposits when the institutions fall below Well
Capitalized. Under distressed financial or economic conditions, institutions could be
required to sell assets at a loss in order to fund deposit withdrawals and other liquidity
needs. In March 2009, the FDIC issued FIL-13-2009, The Use of Volatile or Special
Funding Sources by Financial Institutions That are in a Weakened Condition, which

12
  Bancorp received $30 million in CPP funds in December 2008, of which $24 million was down streamed
to TCB. The FDIC’s supervisory activities pertaining to TCB’s CPP funds are discussed later in this report.
                                                                  I-17
indicated that institutions with aggressive growth strategies or excessive reliance on
volatile funding sources are subject to heightened supervisory monitoring and
examination.

The Examination Manual states that the net non-core funding dependence ratio is a
measure of the degree to which a bank relies on potentially volatile liabilities, such as, but
not limited to, certificates of deposit over $100,000 and brokered deposits, to fund long-
term earning assets (such as loans that mature in more than 1 year).13 Generally, the
lower the ratio, the less risk exposure there is for a bank, whereas higher ratios reflect
reliance on funding sources that may not be available in times of financial stress or
adverse changes in market conditions. TCB’s net non-core funding dependence ratio
consistently exceeded the bank’s peer group average throughout the bank’s history.
Figure 5 illustrates the trend in TCB’s net non-core funding dependence ratio relative to
its peer group during the period 2002 to 2011.

Figure 5: TCB’s Net Non-Core Funding Dependence Ratio Compared to Peer

                            60%
     Net Non-core Funding




                            50%
      Dependence Ratio




                            40%

                            30%

                            20%

                            10%

                            0%
                                  2002   2003   2004   2005   2006   2007   2008   2009   2010   2011
                                                               Year-End

                                                        TCB           Peer Group

Source: KPMG’s analysis of UBPRs for TCB.
Note: The increase in 2011 is primarily attributed to a decrease in long-term assets.

The April 2006 examination report noted that TCB’s Internet deposits represented
52 percent of the bank’s core deposits (which accounted for 67 percent of total deposits).
TCB obtained its Internet deposits through an electronic bulletin board that linked banks
and sellers of deposits to deposit purchasers, such as credit unions, school districts, labor
unions, and other organizations with excess liquidity. TCB purchased its Internet
deposits in increments of $99,000, which resulted in a net non-core funding dependence
ratio that did not fully reflect the bank’s reliance on potentially volatile funding sources.


13
  Net non-core funding dependence ratio is a measurement of noncore liabilities, less short-term
investments divided by long-term assets. Internet deposits below $100,000 are classified as core deposits
under the UBPR definition; therefore, while Internet deposits may exhibit the characteristics of non-core
deposits, they are not reflected in the net non-core funding dependence ratio.
                                                              I-18
TCB acquired Internet deposits, in part, because it did not maintain a traditional branch
network.

The bank’s liquidity position began to weaken as asset quality issues in the loan portfolio
became prevalent. At the August 2010 joint examination, examiners largely attributed a
decrease in TCB’s net non-core funding dependence ratio to a decrease in time deposits
of $100,000 or more and an increase in Other Savings Deposits, which are classified as
core deposits, through promotional rates that were three times higher than the bank’s peer
group average. Examiners noted that the potential volatility of the Other Savings
Deposits was similar, or possibly even greater than, traditional noncore funding sources.
By September 2011, examiners determined that TCB’s liquidity was critically deficient
and threatened the viability of the institution.

TCB was able to reduce its level of non-core deposits and bolster core deposits between
2008 and 2010. However, TCB’s dependence on large time deposits, brokered deposits,
and Internet deposits facilitated TCB’s high loan growth strategy, which ultimately
contributed to the financial problems that occurred when the bank’s lending markets
deteriorated.

The FDIC’s Supervision of Tennessee Commerce
Bank
The FDIC, in coordination with the TDFI, provided ongoing supervisory oversight of
TCB through regular onsite examinations, visitations, and various offsite monitoring
activities. Through its supervisory efforts, the FDIC identified risks in the bank’s
operations and brought these risks to the attention of the institution’s Board and
management through examination and visitation reports, correspondence, and a formal
enforcement action. Such risks included concerns related to the Board and management’s
oversight of the institution, the bank’s lending strategy, loan underwriting, credit
administration, the decline in the loan portfolio, and TCB’s heavy reliance on non-core
funding sources. As described later, more proactive supervisory action to address the
bank’s risky business activities during earlier examinations may have been prudent. The
following sections detail our analysis of TCB’s supervisory history, the pursuit of
enforcement actions, the FDIC’s offsite monitoring activities, the supervisory response to
key risks, the FDIC’s supervisory activities related to CPP funds, PCA activities, and
supervisory lessons learned.

Supervisory History
Although poorly rated during its first 3 years of operation because of management and
asset quality concerns, TCB was satisfactorily rated from 2003 through 2008. Between
April 2007 and TCB’s closing in January 2012 (the focus of our audit), the FDIC and
TDFI conducted five onsite examinations and three visitations of TCB. Except for a
relatively minor delay in starting the June 2009 examination, the frequency of this onsite

                                           I-19
examination activity was consistent with relevant statutory and regulatory requirements.14
Table 4 summarizes key supervisory information pertaining to TCB’s examinations and
visitations.

Table 4: Examination History of TCB, 2007-2011
                                                            Supervisory
 Event Start                                                  Ratings          Informal or Formal Action
    Date             Event Type      Regulator(s)            (UFIRS)*                   Taken**
  4/3/2007           Examination        FDIC                  222222/2                   None
     4/21/2008       Examination          TDFI                 223222/2                     None
     4/23/2008        Visitation          FDIC             No rating changes                None

                                                                                MOU pursued, but not signed
     6/29/2009       Examination          Joint                333432/3
                                                                                      by TCB****

     4/5/2010         Visitation          Joint            No rating changes               None
                                                                                  Consent Order effective
                                                                                  5/25/2011, TDFI Written
     8/2/2010        Examination          Joint                455443/4
                                                                                    Agreement effective
                                                                                        10/27/2011
     3/28/2011        Visitation          Joint            No rating changes                None

 9/26/2011***        Examination          Joint                555555/5          Consent Order still in effect

Source: KPMG’s analysis of examination and visitation reports and information in the FDIC’s Virtual
Supervisory Information on the Net system (ViSION) for TCB.
* See the Glossary for a definition of UFIRS, which establishes the CAMELS rating system.
** Informal actions can take the form of a Bank Board Resolution (BBR) or MOU. Formal enforcement
actions often take the form of a Consent Order or Supervisory Directive.
*** The September 26, 2011 examination report was not finalized before the bank failed. Therefore, any
comments and references in this report to that examination are based on preliminary results and findings.
**** TCB’s Board adopted a BBR on October 22, 2009. However, the FDIC did not recognize the BBR as an
acceptable corrective action and continued pursuit of the MOU.

Pursuit of Enforcement Actions

Based on the results of the June 2009 joint examination, the FDIC and TDFI provided
TCB’s Board with a proposed MOU on January 21, 2010 that was intended to assist the
Board and management in improving the condition of the bank. Among other things, the
proposed MOU included provisions for the Board to:

                submit a capital plan to achieve and maintain Leverage, Tier 1 Risk-Based,
                 and Total Risk-Based capital ratios of 9 percent, 11 percent, and 13 percent,
                 respectively;


14
  Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
requires annual full-scope, on-site examinations of every state non-member bank at least once during every
12-month period and allows for 18-month intervals for certain small institutions (i.e., total assets of less
than $500 million) if certain conditions are satisfied.
                                                    I-20
            prohibit salary increases or bonus payments for top executive managers or
             loan officers without the prior written approval of the Regional Director and
             the TDFI Commissioner until the bank could achieve sustained profitability;

            formulate, adopt, and submit a written plan of action to address the bank’s
             volatile liability dependence ratio;

            approve a revised internal credit grading system for internal loan review
             purposes;

            develop a written plan to reduce the level of nonperforming assets,
             repossessions, and assets classified adversely at the June 2009 joint
             examination;

            restrict additional advances to any borrower for whom the bank holds an
             uncollected charged-off asset or whose extension of credit is adversely
             classified; and

            restrict asset growth to 10 percent during any consecutive 6-month period
             without providing a growth plan to regulators.

In a letter to the FDIC and TDFI dated February 19, 2010, TCB’s legal representatives
requested that a BBR adopted by TCB’s Board on October 22, 2009 be considered a
sufficient response to address the findings of the June 2009 joint examination. In April
2010, the FDIC and TDFI performed a joint visitation of TCB to follow up on the
recommendations and findings of the June 2009 joint examination. The visitation
included an assessment of compliance relative to each provision of the proposed, but
unsigned, MOU. In a letter dated June 23, 2010, the FDIC and TDFI responded to TCB’s
February 2010 letter, noting that, after review of the BBR, an MOU appeared to be the
most appropriate action for continued improvement with respect to certain risk
management practices.15 The regulators presented TCB’s Board with a revised MOU,
which reflected some bank-requested changes, and the Board was urged to accept and
sign the revised MOU.

TCB’s Board never signed an MOU with the FDIC and TDFI, and many of the objectives
and goals of the proposed MOU were not met. Based on serious financial and managerial
deficiencies identified during the August 2010 joint examination, the FDIC and TDFI
notified the Board in a letter dated February 11, 2011 that a formal enforcement action
would be pursued. TCB’s management strongly disagreed with many of the
examination’s findings, adding that it planned to “vigorously appeal” what it believed to
be various inaccuracies in the report of examination.


15
   The FDIC may pursue an MOU as informal corrective action instead of a BBR, such as when there is
reason to believe that the deficiencies noted during an examination warrant a more structured program or
specific terms to effect corrective action.
                                                   I-21
In March 2011, the FDIC and TDFI performed a joint visitation of TCB. Although an
enforcement action was not yet in place at that time, examiners assessed the bank’s
actions against the unsigned Consent Order. While examiners noted progress in some
areas, they also noted that TCB’s management either disagreed or had not achieved
prescribed actions with respect to some of the other provisions of the Consent Order,
including restrictions on volatile liabilities and adequate capital levels. TCB’s Board
subsequently stipulated to the issuance of a Consent Order, which became effective on
May 25, 2011. The Order remained in effect until the bank was closed in January 2012.
Among other things, the Consent Order required TCB to:

          increase the Board’s participation in the affairs of the bank;

          submit a capital plan to achieve and maintain Leverage, Tier 1 Risk-Based,
           and Total Risk-Based capital ratios of 8.5 percent, 10 percent, and
           11.5 percent, respectively;

          formulate and submit a plan for the reduction and collection of delinquent
           loans;

          review the loan policy and procedures for effectiveness and make all
           necessary revisions in order to strengthen the bank’s lending procedures and
           abate additional loan deterioration;

          maintain an adequate ALLL in accordance with generally accepted accounting
           standards and supervisory guidance;

          develop and submit a written plan addressing liquidity, volatile liabilities, and
           asset/liability management;

          restrict additional advances to any borrower for whom the bank holds an
           uncollected charged-off asset or whose extension of credit is adversely
           classified;

          restrict increases in total assets to no more than 5 percent during any
           consecutive 12 month period, and restrict any new line of business without the
           prior consent of the FDIC and TDFI; and

          eliminate and/or correct all apparent violations of laws and regulations.




                                            I-22
Offsite Monitoring

The FDIC has established an offsite review program that is designed to identify emerging
supervisory concerns and potential problems so that bank supervisory strategies can be
adjusted appropriately. The program uses automated tools to help identify potential
supervisory concerns.16 Under the program, offsite reviews are performed quarterly for
each bank that appears on the Offsite Review List (ORL). TCB appeared on the ORL in
September 2007 and subsequently in each consecutive quarter from June 2008 to
December 2009, as well as in December 2010. In addition to documenting the financial
condition of the bank at the time, the reviews generally noted the bank’s high-risk profile
as a result of rapid or sustained growth, with a focus on commercial loans that were
secured by specialized leases and equipment.

To a large extent, the comments in the offsite reviews reiterated the comments and
observations made during on-site examinations and visitations, and further monitoring
was usually deferred to the subsequent or ongoing on-site examination or visitation. The
offsite reviews were conducted in accordance with policy and, as such, focused on
numerical measures of risk with less emphasis on unsafe or unsound practices, such as
risk management practices. Offsite monitoring did not appear to have significantly
changed the FDIC’s approach to supervising the institution because on-site examinations
or visitations were either recently completed or scheduled to begin relatively soon
thereafter.

Supervisory Response to Key Risks
In the years preceding TCB’s failure, the FDIC and TDFI identified risks in the bank’s
operations and brought these risks to the attention of the institution’s Board and
management through examination and visitation reports, correspondence, and
recommendations. In addition, the FDIC pursued an MOU in 2010 and issued a Consent
Order in May 2011, and the TDFI issued a written agreement in October 2011. A
summary of supervisory activities related to the bank’s key risks follows.

2007 Supervisory Activities

Examiners determined during the April 2007 FDIC examination that TCB’s overall
condition was satisfactory. However, the examination report noted that the institution’s
Business Bank model exhibited “niche bank” characteristics that were “unusual, if not
unique with respect to growth, portfolio composition, and funds management practices.”
According to the report, a significant portion of the loan portfolio consisted of
commercial loans secured by highly specialized leases and equipment and half of all
deposits consisted of Internet and brokered deposits. The report indicated that the overall
risk profile of the asset structure was relatively high, but remained satisfactory, even with
16
   The FDIC uses various offsite monitoring tools to help assess the financial condition of institutions. The
tools use statistical techniques and Call Report data to identify potential risks, such as institutions likely to
receive a supervisory downgrade at the next examination or institutions with rapid growth and/or a funding
structure highly dependent on non-core funding sources.
                                                      I-23
robust growth, as economic conditions within the bank’s extensive trade area were stable
and loan demand was strong.17

The April 2007 examination report noted some weaknesses in loan underwriting and
credit administration, although they were not prevalent. For example, examiners
observed instances in which risk rating downgrades, inclusions on the watch list, and
subsequent charge-offs occurred within a period of weeks, suggesting ineffective credit
monitoring. Examiners noted that earlier recognition of potentially problem loans,
particularly within the small indirect loan portfolio, could substantially reduce losses.
The report also indicated that review and analysis of large borrowing relationships needed
improvement and that the bank’s loan policy, which addressed most major topics
recommended by prevailing guidance, needed enhancement in some areas, including
collection procedures.

The examination report stated that the achievement of the bank’s long-term growth
projections may not be accomplished without additional capital infusions. Because
additional capital was considered by examiners to be essential to the continued viability
of the bank’s business model, the report stated that TCB should define its strategies for
acquiring additional capital in a capital plan that is reviewed and approved by the Board.
Such a plan should establish minimum acceptable capital levels, identify possible sources
of capital, and describe capital retention objectives. With respect to liquidity, the
examination report noted that TCB’s net non-core funding dependence ratio of 36 percent
remained on an upward trend and exceeded peer groups averages.

Changes in Board Composition

In July 2007, three of TCB’s Board directors resigned as a result of a disagreement with
the Board’s action and policy regarding executive compensation and the manner in which
the vote was taken to approve the policy. One director’s resignation letter questioned
“whether [they were] a board of directors or a board of directed,” and noted that “the
executive officers/directors [had] concluded that the board [could] be manipulated in
whatever manner deemed desirable (by executive officers).” Based upon our review, we
determined that the FDIC expressed concern regarding these events via email
correspondence and considered whether supervisory action would be appropriate. RMS
officials advised us that, after coordination with the TDFI, supervisory action was not
deemed necessary with respect to the resignation of the directors or the matters that
prompted their resignation.

2008 Supervisory Activities

Examiners determined during the April 2008 TDFI examination that TCB’s overall
condition was satisfactory. However, examiners found that oversight of the bank’s

17
  The April 2006 examination report stated that the overall risk profile of TCB’s asset structure was
relatively high due to the concentration of the bank’s assets in C&I loans. The report stated that this risk
potential was more prominent due to the limited marketability of specialized collateral and economic
variables that could significantly alter the repayment capacity of borrowers and lessen recovery potential.
                                                    I-24
operations by the Board and management needed improvement and downgraded the
management component rating from a “2” to a “3.” Specifically, the April 2008
examination report stated that:

       The bank’s Asset/Liability Committee had not met on a regular basis since the
        prior regulatory examination. However, “minutes” of what were actually “very
        informal discussions” among the Committee members were inappropriately
        submitted to the Board. The examination report stated that the minutes “appear
        to be false and misleading statements provided in reports to the Board” and that
        they had the potential to mislead the directorate as well as examiners that review
        Board meeting documentation. The report cited TCB with an apparent violation
        of Tennessee Code Annotated Section 45-2-1706—Improper Maintenance of
        accounts—False or deceptive entries and statements.

       Strategic planning needed to be strengthened. Specifically, TCB’s Board had not
        reviewed the bank’s strategic plan on an annual basis and the plan had not been
        amended to reflect changes in the bank’s activities.

       The banks’ external audit for the year-ended 2007 included two material
        weaknesses pertaining to (1) a failure to follow policies related to employee
        accounts and (2) a failure of the Asset/Liability Committee to hold formal
        meetings in 2007.

       The Board did not develop a capital plan as recommended in the prior-year
        examination report.

Examiners also noted that TCB’s CFO had been terminated in May 2008, that three
Board directors had resigned, and that one additional director had retired.

Examiners considered asset quality to be satisfactory and assigned that component a “2”
rating. While the adversely classified items coverage ratio had increased from 10 percent
to 19 percent, the TDFI determined the level to be manageable and within acceptable
regulatory standards. Examiners noted an increase in repossessed assets—primarily
trucks that were leased through the bank’s lease pool program. These repossessions
resulted in an apparent violation of Tennessee law because a significant portion of the
repossessions were held by the bank in excess of the 6-month maximum permitted by
state statute. TCB’s management attributed the high level of repossessed assets, which
were centered in the small indirect loan portfolio, to adverse conditions in the trucking
industry. In addition, TCB’s C&I concentration at year-end 2007 was 539 percent of total
capital (which placed TCB in the 99th percentile of its peer group). However, the 2008
TDFI examination report was silent in regard to the concentrations within the C&I
portfolio and the associated impact on TCB’s risk profile.

Examiners noted that the bank’s sustained high asset growth, which ranked in the
96th percentile compared to its peer group average at year-end 2007, continued to erode
the bank’s capital position. Examiners again recommended that the Board adopt a written
                                            I-25
capital plan. Nevertheless, capital was considered to be adequate and positively affected
by the absence of dividend payments and by a holding company injection through the
issuance of TPS. Further, examiners assigned TCB a composite rating of “2,” indicating
the institution was capable of withstanding business fluctuations.

Loan Review

According to the April 2008 TDFI examination report, $136.8 million (or 16.48 percent)
of the bank’s total loans as of April 18, 2008 was reviewed by examiners. This amount is
significantly smaller than the amount of loans reviewed at either the April 2007 FDIC or
June 2009 joint examinations, which was $200.1 million (or 40 percent) of total loans and
$339 million (or 31 percent) of total loans, respectively. TDFI officials recognized that
the loan penetration at the April 2008 examination was low compared to the prior and
subsequent examinations but informed us that the volume of loan penetration at the April
2008 examination was commensurate with examination risk-profile scoping criteria,
including the satisfactory asset quality finding at the April 2007 FDIC examination.
However, we noted that the April 2007 FDIC examination report stated the overall risk
profile of the asset structure was relatively high.

April 2008 Visitation

The FDIC performed a visitation in April 2008 in response to the CFO’s allegations of
material misstatements in the bank’s financial reporting and alleged misconduct by bank
employees in late 2007. TCB’s management acknowledged that operational deficiencies
existed and noted that corrective measures were administered by bank executive
management. Examiners reviewed the matter and concluded, after consultation with
FDIC legal counsel, that the CFO’s allegations and concerns did not support a formal
supervisory action. As noted earlier, TCB’s external audit for the year-ended 2007 cited
two material weaknesses in internal controls. Examiners noted at the April 2008 TDFI
examination that management had taken appropriate steps to correct the weaknesses
noted in the external audit.

2009 Supervisory Activities

Examiners determined during the June 2009 joint examination that TCB’s financial
condition was less than satisfactory and downgraded the bank’s composite rating to a “3.”
The examination report stated that the bank’s performance reflected the decline in the
economy over the prior 12 months, the organization’s inability to generate sufficient
operating income through normal operations, and management’s inadequate actions to
address deterioration in the bank’s loan portfolio. Examiners noted that adverse loan and
lease classifications had quadrupled since year-end 2007, delinquent loans had increased
nearly two-fold, and loans charged off had increased substantially.

Notably, six borrowing relationships (not including Relationship A) accounted for
44 percent of adversely classified loans. Examiners attributed a sizeable portion of
adverse loan classifications, including small indirect loans, to slowing economic
                                           I-26
conditions in the trucking and tour bus industries. As a result of the bank’s less-than-
satisfactory asset quality, earnings were insufficient to support operations or augment
capital. Examiners also found that liquidity needed improvement, adding that liquidity
contingency plans emphasizing potential asset-based sources of liquidity needed to be
developed given the bank’s financial condition.

Examiners noted that although the loan policy was adequate, lax underwriting,
administration, and monitoring practices were evident. For example, examiners noted
instances in which credit reports were not obtained prior to loan origination, global cash
flow analyses were not performed, LTVs were high, and financial information on
borrowers was missing.

Examiners also noted that TCB’s most recent internal loan review, performed as of
January 2009, identified a moderate level of documentation exceptions, generally
pertaining to a lack of current financial information on borrowers and not obtaining loan
guarantees. The June 2009 joint examination report suggested that refresher training be
provided for all employees with loan authority or who had responsibility for credit
documentation to reinforce the importance of strong credit practices in a declining
economy. The report added that implementing a credit culture consistent with the then
current economic environment that was evident throughout Tennessee and the nation, as
well as reassessing the organization’s risk appetite, would be a prudent plan of action.

TCB’s loan portfolio had grown by $310 million (or 39 percent) since the prior
examination. Examiners suggested that the Board consider suspending or curtailing its
growth strategy while evaluating the systemic risk to the institution. Examiners further
suggested that management consider establishing concentration criteria relative to capital
in order to manage the bank’s significant industry exposure and concentration risk, as had
been done by regulatory agencies related to CRE lending.18 While the bank demonstrated
awareness of the concentrations as a percentage of capital, examiners noted that the
financial condition of the bank was highly sensitive to economic conditions, and
recommended that the Board and management carefully consider additional strategies to
further mitigate concentration risk going forward.

In a letter dated October 8, 2009, the FDIC notified TCB’s Board that the bank was
deemed to be in a “troubled condition.” The letter outlined the FDIC’s expectations of
the Board and management, and instructed them to administer the bank in such a way as
to stabilize its risk profile and strengthen its financial condition. The letter also noted that
pursuit of informal corrective action would be recommended to the RMS Regional
Director. As previously mentioned, the FDIC and TDFI pursued informal corrective
action in the form of an MOU based on the results of the June 2009 joint examination.



18
  In December 2006, the FDIC, the Office of the Comptroller of the Currency, and Board of Governors of
the Federal Reserve System issued joint guidance, entitled Concentrations in Commercial Real Estate
Lending, Sound Risk Management Practices, which defines criteria that the agencies use to identify
institutions potentially exposed to significant CRE concentration risk.
                                                 I-27
2010 Supervisory Activities

The FDIC and TDFI performed a joint visitation in April 2010. The purpose of the
visitation was to follow up on recommendations and exceptions from the June 2009
examination, review the bank’s financial condition, and assess compliance with the
proposed MOU that was presented to the Board in January 2010. The visitation noted
some progress, but the overall condition of the bank remained less than satisfactory.
Notably, the balance of repossessed assets had more than doubled, and earnings continued
to suffer from high provision expenses. Examiners also found that the bank’s credit
grading, administration, and underwriting practices related to Relationship A were
questionable and that additional information regarding the debt service ability, collateral
valuation, and ownership of pledged collateral was needed to fully assess the risk
associated with the relationship.

The August 2010 joint examination found that the overall condition of the bank had
deteriorated, and a composite “4” rating was assigned. Adverse classifications posed an
imminent threat to the bank’s viability. Examiners attributed the deterioration in asset
quality to credit administration and underwriting weaknesses. Earnings were considered
insufficient to support operations and maintain appropriate capital and allowance levels.
Examiners also noted that liquidity was deficient and that the bank’s ability to obtain
sufficient funds on reasonable terms to meet liquidity needs was threatened.

The August 2010 joint examination report stated that TCB’s Board and management had
failed to provide appropriate oversight of the operation of the bank and its performance.
As mentioned earlier, examiners noted concern regarding the lack of proper analysis by
the bank before entering into new and unconventional lending practices involving
insurance premium financing, as well as the lax lending practices related to credits
extended to individuals involved with banking and on loans secured by other financial
institutions’ stock—most notably Relationship A. Further, management’s failure to
recognize losses in a timely manner and reflect those losses within the appropriate period
resulted in inaccurate financial reporting. Matters requiring the Board’s attention
included, but were not limited to, the following:

      a $16.3 million provision to the ALLL was needed to provide for the inherent risk
       in the loan portfolio;

      the bank’s capital plan needed to be revised to address short-term needs, minimum
       capital requirements, and potential capital sources;

      the ALLL calculation required a more robust FAS 114 and FAS 5 methodology;

      Call Reports for June 30, 2010, March 31, 2010, and December 31, 2009, needed
       to be amended to reflect the true financial condition of the bank;

      apparent violations of laws, rules, regulations, and contraventions of statements of
       policy were in need of immediate correction; and
                                            I-28
        improved monitoring of the C&I portfolio, which totaled 465 of Total Risk-Based
         Capital at the time of the examination.

As noted earlier, examiners requested that TCB’s Board enter into an MOU to address a
number of concerns identified during the June 2009 joint examination. However, an
MOU was never executed. Examiners noted that many of the objectives and goals of the
proposed MOU had not been met. Examiners also determined that it did not appear that
management had complied with the instructions communicated in the October 2009
troubled bank notification letter to administer the bank in such a way as to stabilize its
risk profile and strengthen its financial condition. Based on our discussions with FDIC
examiners, the Board and management appeared to be spending time resisting regulatory
recommendations rather than devoting their full attention to addressing and correcting the
serious issues and supervisory concerns that the bank was facing.

2011 Supervisory Activities

In a letter dated February 11, 2011, the FDIC provided TCB’s Board with a proposed
formal enforcement action to address the concerns identified during the August 2010 joint
examination. The FDIC and TDFI subsequently provided the Board with the final
August 2010 examination report on March 17, 2011.19 In a letter dated March 24, 2011,
TCB’s Board advised the FDIC of its belief that the findings of the examination report
were significantly flawed and that the bank intended to appeal the results of the
examination. On April 6, 2011, the FDIC responded to the various concerns conveyed by
the bank regarding the August 2010 examination report, and informed the bank that under
the FDIC’s Guidelines for Appeals of Material Supervisory Determinations, when the
FDIC provides written notice to the bank indicating intent to pursue formal enforcement
action, a bank’s right to appeal the determinations, facts, and circumstances that form the
basis for the formal enforcement action is terminated.20

The FDIC and TDFI performed a joint visitation in March 2011 to assess the financial
condition of the bank and its compliance with the unsigned Order that was provided to the
Board in February 2011. While a reduction in the balances of previously classified loans
was noted, the level of classifications, combined with management’s previous and
continued resistance to recognize problem loans, remained a concern to examiners. The
ALLL remained significantly underfunded, and management appeared to have been
focused more on arguing the merits of particular classifications instead of assessing,
measuring, and adequately providing for the risks in the loan portfolio. However, the
Board stipulated to the proposed Order effective May 25, 2011.

19
   In the same communication, the Board was notified that the TDFI intended to pursue parallel formal
action in the form of a Written Agreement, which was issued on October 27, 2011.
20
   In September 2008, the FDIC adopted revised Guidelines for Appeals of Material Supervisory
Determinations to better align the FDIC’s appeals review process with other Federal banking agencies. As
it relates to decisions to proceed with formal enforcement action, an independent review requirement
includes an administrative hearing held before an impartial administrative law judge who makes findings of
facts, conclusions of law and recommends a decision to the FDIC Board of Directors, which ultimately
decides the outcome of any contested enforcement action.
                                                  I-29
A joint examination commenced in September 2011. The examination included an
assessment of the bank’s efforts to comply with the Consent Order. An examination
report was not finalized prior to TCB’s failure. However, based on the preliminary
findings of the examination, examiners noted that the financial condition of the bank was
critically deficient and that near-term failure was highly probable, absent an immediate,
large infusion of new capital. Consequently, a “5” rating was proposed for all
components and the composite rating. The Board was considered to be fractured, and
examiners had little confidence in management’s ability to reverse the negative financial
trends facing the bank. Among other things, examiners noted the following deficiencies:

      Apparent violations, including an apparent legal lending limit violation and
       contravention of Statements of Policy (some of which were repeat criticisms).

      Management and the Board failed to appropriately adjust for changing economic
       conditions and identify risk in the loan portfolio. The bank continued to grow
       loans in an uncertain economic environment, while their peers were restricting
       loan growth. Examiners noted that several classified loans were originated during
       a time of economic uncertainty, and without a full understanding or consideration
       of the level of risk-exposure to the bank.

      Poor credit administration practices and inadequate monitoring of the loan
       portfolio had resulted in an excessive level of adversely classified items (i.e.,
       $298.9 million, or 21 percent of the bank’s assets and 506 percent of Tier 1
       Capital plus the ALLL). Adversely classified loans totaling $76.3 million were
       identified as loss, which included two large borrowing relationships of
       $47.8 million.

      The ALLL was severely deficient and an additional provision expense of
       $80.2 million was required to reflect examination-identified loan losses and to
       replenish the ALLL to an appropriate level.

      An independent loan review performed in June 2011 identified nine borrowers
       with loans totaling $65.9 million warranting downgrades from management’s
       internal loan grades. Examiners identified $157.3 million in loan downgrades at
       the examination.

      Loans related to Relationship A were underwritten without adequate global cash
       flow analyses and without realistic in-depth analysis of the value of the collateral.
       In addition, there were no policies and procedures in place for the types of loans
       extended to the borrowers, which resulted in credit risk not being adequately
       assessed.

      Liquidity was critically deficient and threatened the viability of the bank.
       Examiners noted that access to secondary funding sources had ceased due to
       substantial deterioration in asset quality and capital.
                                            I-30
For the remainder of 2011, and until the bank’s closing in January 2012, the FDIC
continued to monitor the bank’s liquidity, efforts to raise capital, and compliance with the
Consent Order.

Capital Purchase Program
On October 3, 2008, the President signed the Emergency Economic Stabilization Act of
2008 (EESA) into law. Among other things, the Act authorized the TARP, which is
administered by the Treasury. Under the TARP, the Treasury has implemented the CPP
through which the Treasury purchases senior preferred stock (and, if appropriate,
warrants of common stock) from viable institutions of all sizes. The Treasury issued
guidelines for publicly held financial institutions, such as Bancorp, to apply for funds
under the CPP on October 20, 2008. The CPP application period for publicly held
institutions closed on November 14, 2008.

Qualifying financial institutions were permitted to apply for funds under the CPP after
consulting with their primary federal regulator. After receiving an application for CPP
funds, primary federal regulators used a standardized process established by the Treasury
for evaluating the application. The evaluation process contained viability criteria for use
in assessing the applications. In general, if an institution met the Treasury’s viability
criteria, the appropriate federal banking agency recommended that the Treasury approve
CPP funding. Applications that did not satisfy the viability criteria were forwarded to an
interagency CPP Council for further review and action. The Assistant Secretary for
Financial Stability within the Treasury had final authority to approve CPP applications.

On February 9, 2009, the FDIC issued a Regional Directors Memorandum, entitled
Examination Guidance for Financial Institutions Receiving Subscriptions from the U.S.
Department of the Treasury’s TARP CPP Program. The memorandum provides
examination work steps for assessing the compliance efforts of institutions participating
in the CPP and the Treasury’s executive compensation rules. According to the
memorandum, examiners are required to assess compliance with CPP securities purchase
agreements (CPP Agreement) between the Treasury and state nonmember banks and the
requirements of the EESA as applied through the CPP Agreements.21

The February 2009 memorandum states that the FDIC expects state nonmember banks to
use CPP funds to augment capital and support lending needs, even though the terms of
CPP Agreements do not mandate specific use of CPP funds. In that regard, on
November 12, 2008, the federal banking agencies issued the Interagency Statement on
Meeting the Needs of Creditworthy Borrowers (Interagency Statement) encouraging
banks to responsibly make credit available, particularly in light of federal initiatives (such
as the CPP) designed to bolster financial and credit market liquidity. As part of the
FDIC’s distribution of the Interagency Statement through FIL-128-08, the FDIC

21
  CPP Agreements require compliance with prudential standards for executive compensation, corporate
governance, dividends, and other criteria.
                                                 I-31
encourages state nonmember banks participating in these initiatives to prudently make
credit available in their markets and to work with home mortgage borrowers experiencing
difficulty in making payments. The FIL states that FDIC examiners will consider banks’
lending, mortgage foreclosure prevention efforts, and executive compensation when
assigning risk management, compliance, and CRA ratings. Further, the February 2009
memorandum states that examination reports should include a summary of how CPP
funds have been used and whether compliance efforts and processes to implement the
Interagency Statement are effective.

The FDIC’s Recommendation of Bancorp for CPP Funding

On November 7, 2008, Bancorp filed a CPP application with the Federal Reserve Bank of
Atlanta, its primary regulator, and the FDIC. The FDIC, TCB’s primary regulator,
reviewed the application and recommended that the Treasury approve CPP funds for
Bancorp. At the time of its application, TCB met all of the Treasury’s eligibility criteria
and the FDIC considered TCB to be a viable institution.

Examiners’ Evaluation of CPP Funds

On December 19, 2008, Bancorp entered into a CPP Agreement with the Treasury and
received $30 million in funds under the CPP. Bancorp subsequently down streamed
$24 million of the funds to TCB, $5 million to Tennessee Commercial Asset Services,
Inc., and retained $1 million at the holding company level to cover expenses. Examiners
obtained documentation during the June 2009 joint examination that addressed TCB’s use
of the CPP funds and efforts to comply with executive compensation requirements
associated with CPP funding. While examiners noted in the June 2009 joint examination
report that the CPP funds were utilized to fund loan growth, the report did not address
TCB’s compliance with the CPP Agreement.

The August 2010 joint examination report stated that examiners were unable to determine
whether TCB fully complied with the CPP Agreement and the requirements of EESA
based on limited information provided by the bank. According to RMS officials,
examiners made multiple attempts to gain information from the CFO and other bank
management officials, as well as by reviewing financial information and Board committee
minutes. Examiners noted that the bank’s Board minutes were silent regarding TCB’s use
of the $24 million in funds down streamed from Bancorp. Examiners also noted that the
Board approved a new expenditure policy and revised several employment contracts and
deferred compensation agreements to comply with Treasury requirements. However, the
complete terms of the contracts and agreements were not disclosed to examiners.
Examiners further noted that Compensation Committee minutes, which were only
provided through May 2009, documented the bank’s efforts to comply with EESA. We
did not find evidence that examiners performed follow-up inquiries with TCB’s
management after the 2010 joint examination to obtain additional information regarding
the bank’s compliance with the CPP Agreement.



                                           I-32
Examiners at the September 2011 joint examination evaluated TCB’s compliance with
the CPP Agreement within the examination workpapers. While examiners did not
identify any violations with CPP Agreement, a final determination and full assessment of
compliance was not completed as the examination report was not completed prior to the
bank’s failure in September 2012. Under EESA, the CPP funds provided to Bancorp are
subject to review by the Special Inspector General for the TARP.

Implementation of PCA
Section 38 of the FDI Act, Prompt Corrective Action, establishes a framework of
mandatory and discretionary supervisory actions pertaining to all institutions. The section
requires regulators to take progressively more severe actions, known as “prompt
corrective actions” as an institution’s capital level deteriorates. The purpose of section 38
is to resolve the problems of insured depository institutions at the least possible cost to
the DIF. Part 325, Capital Maintenance, of the FDIC Rules and Regulations defines the
capital measures used in determining the supervisory actions that will be taken pursuant
to section 38 for FDIC-supervised institutions. Part 325 also establishes procedures for
the submission and review of capital restoration plans (CRP) and for the issuance of
directives and orders pursuant to section 38. The FDIC is required to closely monitor the
institution’s compliance with its CRP, mandatory restrictions defined under section 38(e),
and discretionary safeguards imposed by the FDIC (if any) to determine if the purposes of
PCA are being achieved.

Based on the supervisory actions taken with respect to TCB, the FDIC properly
implemented the applicable PCA provisions of section 38. TCB was considered Well
Capitalized or Adequately Capitalized for PCA purposes until its September 30, 2011
Call Report filing, at which point the institution became Critically Undercapitalized.
Table 5 summarizes TCB’s capital ratios relative to the PCA thresholds for Well
Capitalized institutions during examinations and at other key points in time. A
chronological description of the changes in the bank’s capital categories and the FDIC’s
implementation of PCA follows the table.




                                            I-33
Table 5: TCB’s Capital Levels

 Examination or                      Total Risk-      Tier 1 Risk-
                     As of Date                                         Leverage       PCA Capital Category
   Event Date                          Based             Based

     Well Capitalized Threshold         ≥10%              ≥6%              ≥5%
      4/3/2007
                     12/31/2006         10.43             9.22             8.77            Well Capitalized
     Examination
      4/21/2008
                     12/31/2007         10.40             9.27             8.75            Well Capitalized
     Examination

      6/29/2009
                      3/31/2009         10.30             9.40             8.98            Well Capitalized
     Examination

      8/2/2010
                      6/30/2010         9.51              8.24             7.58        Adequately Capitalized
     Examination

     6/2/2011 PCA     5/25/2011
                                        N/A               N/A              N/A         Adequately Capitalized
      Notification      Order
  11/2/2011 PCA
                                                                                             Critically
   Directive and      9/30/2011         2.34              1.17             0.95
                                                                                          Undercapitalized*
   Notification
Source: KPMG’s Analysis of TCB examination reports and PCA Activities.
* TCB became Critically Undercapitalized when its tangible equity to total assets ratio fell below 2 percent.

TCB was considered Well Capitalized for PCA purposes until the August 2010 joint
examination, at which time the bank fell to Adequately Capitalized based on the results of
the examination. Subsequent to the August 2010 examination, Bancorp injected
$6 million of capital into the bank through a stock offering that generated approximately
$24 million in new capital for the holding company, returning the bank to a Well
Capitalized position. The FDIC notified the Board in a letter dated June 2, 2011 that the
bank fell to Adequately Capitalized upon the issuance of the Consent Order, effective
May 25, 2011. 22 The FDIC recommended that the Board review the mandatory
restrictions in Section 38 that apply to Adequately Capitalized institutions, and further
noted restrictions regarding the use of brokered deposits and interest rates paid pursuant
to Section 337 of the FDIC Rules and Regulations.

The FDIC notified the Board in a letter dated November 2, 2011 that the bank fell to
Critically Undercapitalized based on its September 30, 2011 Call Report filing. The
letter detailed the requirements of, and restrictions on, Critically Undercapitalized
institutions as defined in section 38, including, but not limited to, the submission of a
CRP by November 15, 2011. The letter added that the FDIC would be required to place
the bank into receivership on January 27, 2012, unless it was determined that that a
different action would better carry out the purposes of section 38. The FDIC issued a
PCA Directive on November 2, 2011 due to the bank’s rapidly deteriorating capital
condition and the inability of TCB management to return the bank to a safe and sound

22
  Part 325 Subpart B, Prompt Corrective Action, of the FDIC Rules and Regulations states that a Well
Capitalized status indicates that a bank (1) meets prescribed capital ratios and (2) is not subject to any
written agreement, Order, capital directive, or PCA Directive to meet and maintain a specific capital level.
                                                     I-34
condition. Among other things, the provisions of the PCA Directive required the bank to
take certain actions including, but not limited to:

      recapitalizing the bank within 30 days;

      restricting interest rates paid on deposits;

      refraining from accepting, renewing, or rolling over any brokered deposits; and

      refraining from making any capital distributions or dividend payments.

In a letter dated January 20, 2012, the FDIC informed the bank that RMS had received
TCB’s CRP on December 21, 2011 and that the CRP was due on November 15, 2011.
The CRP identified alternatives to increase the bank’s capital levels that included
soliciting bids for a whole bank transaction and on a portfolio basis, as well as raising
capital through certain personal relationships. However, no definitive agreements had
been reached. The FDIC determined that the CRP was not acceptable and requested that
a revised CRP be submitted within 30 days. Efforts to recapitalize the bank were
ultimately unsuccessful, and TCB was closed on January 27, 2012.

Supervisory Lessons Learned
TCB exhibited a high risk profile in the years preceding the bank’s financial decline. Key
factors contributing to the bank’s elevated risk profile included:

      sustained high growth and heavy concentrations in economically sensitive
       segments of C&I lending, including emphasis on specialized lending to leasing
       companies and lease brokers in the transportation industry, the nature of which
       exposed the bank to elevated credit risk.

      reliance on outside sources of capital to maintain growth and capital ratios that
       were marginally above the PCA thresholds for Well Capitalized institutions.

      exposure to large and complex borrowing relationships without adequate
       underwriting and administration.

      dependence on non-core funding sources, such as Internet and brokered deposits,
       to support loan growth and liquidity.

Examination reports issued in the years before TCB’s financial decline noted that the
bank had a relatively high risk profile and included recommendations to TCB’s Board
and management to address risks identified during the examinations. During those
periods, TCB was profitable, its financial condition was satisfactory, and conditions in its
lending markets were generally favorable. Under the FDIC’s current approach to
supervision (described in more detail below), banks with elevated risk profiles, such as

                                             I-35
TCB, are subject to increased supervisory analysis and a more proactive supervisory
response—including accelerated examinations or visitations, lower ratings, and/or
supervisory actions—when risks are not properly managed.

In the case of TCB, a more proactive supervisory response to the bank’s risky business
activities during earlier examinations may have been prudent. Such a response could
have included placing greater emphasis on TCB establishing prudent limits on its industry
and borrower concentrations, holding higher levels of capital, and implementing stronger
risk management practices—particularly with respect to its specialized lending and funds
management practices. For example, examiners could have promptly followed up with
TCB’s Board to ensure it developed and approved an acceptable capital plan as
recommended in the April 2007 examination report. Examiners learned during the
following year’s examination that the Board had not acted on the recommendation.
Examiners again recommended in 2008 that the Board adopt a capital plan.

A more in-depth review of TCB’s loan portfolio during the April 2008 TDFI examination
may also have been warranted given the risk and complexity of the bank’s lending
practices, its continued high growth, and management’s less-than-satisfactory oversight
of the bank. Further, examiners could have expressed greater concern within the
examination report regarding the risks associated with segments of TCB’s C&I loan
portfolio, including concentrations of credit pertaining to the transportation industry.

Based on the results of the June 2009 examination, the FDIC pursued an MOU with
TCB’s Board to address key risk management concerns at the bank. Although TCB’s
Board passed a BBR to address the issues identified during the examination, the FDIC
was unable to persuade the bank to execute an MOU. The FDIC performed a visitation of
the bank in April 2010 to assess the bank’s actions to address the proposed requirements
in the MOU. In retrospect, accelerating the next full-scope examination may have
resulted in the necessary support to pursue a formal action sooner than the Consent Order
that became effective in May 2011.

More proactive supervisory action during earlier examinations may have produced a
different supervisory response and better positioned TCB to work through the financial
difficulties that it experienced when economic conditions in its lending markets
deteriorated.

The FDIC informed us that it has taken a number of actions to enhance its supervision
program based on the lessons learned from failures during the financial crisis.
With respect to the issues discussed in this report, the FDIC has, among other things,
completed a training initiative in 2010 for its entire supervisory workforce that focused on
placing greater emphasis on risk management practices for institutions with elevated risk
profiles. The training addressed the importance of considering management practices as
well as current financial performance or trends when assigning ratings, consistent with
existing examination guidance. The FDIC has also issued FIL-84-2008, entitled Liquidity
Risk Management, which highlights the importance of (among other things) contingency
funding plans in addressing relevant stress events. Further, the FDIC issued FIL-13-
                                           I-36
2009, The Use of Volatile or Special Funding Sources by Financial Institutions that are
in a Weakened Condition, which heightened its supervision of institutions with aggressive
growth strategies or excessive reliance on volatile funding sources.

As it relates to the specialty lending areas at TCB, the FDIC completed updates to
Examination Documentation (ED) Modules related to C&I Loans and Lease Financing in
September 2009 and July 2010, respectively. The ED Modules are an examination tool
that focuses on risk management practices and guides examiners to establish an
appropriate examination scope. Further, on January 26, 2010, the FDIC issued guidance
to its examiners that defines procedures for better ensuring that examiner concerns and
recommendations are appropriately tracked and addressed.




                                          I-37
                                                                              Appendix 1


               Objectives, Scope, and Methodology

Objectives

We performed this performance audit to satisfy the requirements of section 38(k) of the
FDI Act, as amended by the Financial Reform Act, which provides, in general, that if the
DIF incurs a material loss with respect to an insured depository institution, the Inspector
General of the appropriate federal banking agency shall prepare a report to that agency,
reviewing the agency’s supervision of the institution. Section 38(k), as amended,
establishes an MLR threshold of $150 million for losses that occur for the period
January 1, 2012 through December 31, 2013. The FDI Act requires that the report be
completed within 6 months after it becomes apparent that a material loss has been
incurred.

Consistent with the FDI Act provisions described above, the objectives of this MLR were
to (1) determine the causes of TCB’s failure and the resulting material loss to the DIF and
(2) evaluate the FDIC’s supervision of TCB, including the FDIC’s implementation of the
PCA provisions of section 38 of the FDI Act.

Our report contains no recommendations. Instead, as major causes, trends, and common
characteristics of institution failures are identified in MLRs, the FDIC OIG
communicates those to FDIC management for its consideration. As resources allow, the
FDIC OIG conducts more comprehensive reviews of specific aspects of the FDIC’s
supervision program and makes recommendations as warranted.

We conducted this performance audit from April 2012 to June 2012 in accordance with
GAGAS. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based
on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of TCB from April 2007 until its failure on
January 27, 2012. Our audit also entailed an evaluation of the regulatory supervision of
the institution over the same period. Additionally, we reviewed the FDIC’s consideration
of the application for deposit insurance, given supervisory concerns that were noted at the
bank’s inception in 2000.

To achieve the objectives, we performed the following procedures and utilized the
following techniques:

        Analyzed examination and visitation reports prepared by FDIC and TDFI
         examiners from 2007 to 2011


                                            I-38
                                                                               Appendix 1

       Reviewed the following documentation:

             Financial institution data and correspondence maintained at the RMS Dallas
              Regional Office and Nashville Field Office, as provided to KPMG by RMS

             Reports prepared by DRR and RMS relating to TCB’s closure

             Pertinent RMS policies and procedures

             The FDIC summary of investigation report for the bank’s application for
              deposit insurance

       Interviewed relevant FDIC officials who had supervisory responsibilities
        pertaining to TCB, which included RMS regional officials from the Dallas
        Regional Office and examination staff in the Nashville Field Office

       Interviewed appropriate officials from the TDFI to discuss the historical
        perspectives of the institution, applicable examinations, and other activities
        regarding the TDFI’s supervision of the bank

       Researched various banking laws and regulations

KPMG relied primarily upon the materials provided by the FDIC OIG, RMS, and DRR,
including information and other data collected during interviews. We also met with DRR
officials and reviewed original bank records maintained by DRR. KPMG did not
perform specific audit procedures to ensure the information and data were complete and
accurate. KPMG is, however, aware that Circular 12000.1, Cooperation with the Office
of Inspector General, dated September 28, 2007, requires that all FDIC employees,
contractors, and subcontractors cooperate with the OIG in order for the OIG to carry out
its statutory mandate. To that end, all employees, contractors, and subcontractors must:

    (1) Provide authorized representatives of the OIG immediate and unrestricted
        access to all Corporation, receivership, contractor, and subcontractor personnel,
        facilities, equipment, hard copy and electronic records, files, information
        systems, and other sources of information when requested during the course of
        their official duties.

    (2) Provide authorized representatives of the OIG immediate and unrestricted
        access to any records or material available to any part of the FDIC.

Interviews were conducted to gain a better understanding of decisions made regarding the
supervisory approach to the institution and to clarify information and conclusions
contained in examination reports and other relevant supervisory correspondence between
the FDIC, TDFI, and the bank. KPMG relied on the information provided in the
interviews without conducting additional specific audit procedures to test such
information.

                                            I-39
                                                                              Appendix 1

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess RMS’s overall internal control or
management control structure. We relied on information in the FDIC’s systems, reports,
and interviews of examiners to understand TCB’s management controls pertaining to the
causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems, but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination and visitation reports, correspondence files,
and testimonial evidence, to corroborate data obtained from systems that were used to
support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this MLR, we did not assess the strengths and weaknesses
of RMS’s annual performance plan in meeting the requirements of the Results Act
because such an assessment was not part of the audit objectives. RMS’s compliance with
the Results Act is reviewed in OIG’s program audits of RMS operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act and the FDIC’s Rules and Regulations.
The results of our tests are discussed, where appropriate, in this report. Additionally, we
assessed the risk of fraud and abuse related to our objectives in the course of evaluating
audit evidence.

Related Coverage of Financial Institution Failures

We were provided with a memorandum issued by the OIG on May 1, 2009 that outlined
major causes, trends, and common characteristics of FDIC-supervised financial
institution failures that had resulted in a material loss to the DIF. The memorandum also
indicated that the OIG planned to provide more comprehensive coverage of those issues
and make related recommendations, when appropriate. Since May 1, 2009, the OIG has
issued additional MLR reports related to failures of FDIC-supervised institutions, and
these reports can be found at www.fdicig.gov. As discussed earlier in this report, the
OIG issued an audit report, entitled Follow-up Audit of FDIC Supervision Program
Enhancements (Report No. MLR-11-010), in December 2010. The objectives of the
audit were to (1) determine the actions that the FDIC has taken to enhance its supervision
program since May 2009, including those specifically in response to the May 2009
memorandum and (2) identify trends and issues that have emerged from subsequent
MLRs.



                                            I-40
                                                                             Appendix 1

Further, with respect to more in-depth coverage of specific issues, the OIGs of the FDIC,
the Department of the Treasury, and the Board of Governors of the Federal Reserve
System issued an evaluation report in September 2011, entitled, Evaluation of Prompt
Regulatory Action Implementation (Report No. EVAL-11-006), which assessed the role
and Federal regulators’ use of the Prompt Regulatory Action provisions of the FDI Act
(section 38, PCA, and section 39, Standards for Safety and Soundness) in the banking
crisis.

Additionally, the FDIC OIG has informed us that they have an ongoing evaluation that is
studying the characteristics and related supervisory approaches that may have prevented
FDIC-supervised institutions with significant Acquisition, Development, and
Construction (ADC) loan concentrations from being designated as problem banks or
failing during the recent financial crisis. Further, in January 2012, the President signed
Public Law 112-88 (H.R. 2056, as amended), which requires the Inspector General of the
FDIC to conduct a comprehensive study on the impact of the failure of insured depository
institutions. In connection with this study, the FDIC OIG has initiated work in the
following areas of bank supervision:

          evaluation and use of appraisals,

          implementation of FDIC policy statement on CRE loan workouts,

          risk management enforcement actions, and

          examiner assessment of capital.

The Inspector General is required to submit a report on the results of the study and any
related recommendations to Congress by January 3, 2013.




                                           I-41
                                                                             Appendix 2


                         Glossary of Terms

          Term                                       Definition
Acquisition,             ADC loans are a component of CRE that provide funding for
Development, and         acquiring and developing land for future construction, and that
Construction             provide interim financing for constructing residential or
(ADC) Loans              commercial structures.

Adversely Classified     Assets subject to criticism and/or comment in an examination
Assets                   report. Adversely classified assets are allocated on the basis of risk
                         (lowest to highest) into three categories: Substandard, Doubtful,
                         and Loss.

Allowance for Loan and   The ALLL is an estimate of uncollectable amounts that is used to
Lease Losses (ALLL)      reduce the book value of loans and leases to the amount that is
                         expected to be collected. It is established in recognition that some
                         loans in the institution’s overall loan and lease portfolio will not be
                         repaid. Boards of directors are responsible for ensuring that their
                         institutions have controls in place to consistently determine the
                         allowance in accordance with the institutions’ stated policies and
                         procedures, generally accepted accounting principles, and
                         supervisory guidance.
Annual Report on Form    An annual report required by the Securities and Exchange
10-K                     Commission that provides a comprehensive summary of a public
                         company’s performance. The report includes information such as
                         company history, organizational structure, executive
                         compensation, equity, subsidiaries, and audited financial
                         statements, among other information.

Bank Board Resolution    A BBR in an informal commitment adopted by a financial
(BBR)                    institution’s Board of Directors (often at the request of the FDIC)
                         directing the institution’s personnel to take corrective action
                         regarding specific noted deficiencies. BBRs may also be used as a
                         tool to strengthen and monitor the institution’s progress with
                         regard to a particular component rating or activity. The FDIC is
                         not a party to these resolutions, but may review or draft the
                         documents as a means of initiating corrective action.
Call Report              Consolidated Reports of Condition and Income (also known as
                         Call Reports) are reports that are required to be filed by every
                         national bank, state member bank, and insured nonmember bank
                         pursuant to the FDI Act. These reports are used to calculate
                         deposit insurance assessments and monitor the condition,
                         performance, and risk profile of individual banks and the banking
                         industry.




                                       I-42
                                                                               Appendix 2


         Term                                            Definition
Capital Restoration Plan   Section 325.104(a)(1) of the FDIC Rules and Regulations requires
(CRP)                      a bank to file a written CRP with the appropriate FDIC regional
                           director within 45 days of the date that the bank receives notice or
                           is deemed to have notice that the bank is Undercapitalized,
                           Significantly Undercapitalized, or Critically Undercapitalized,
                           unless the FDIC notifies the bank in writing that the plan is to be
                           filed within a different period.

Commercial Real Estate     CRE loans are land development and construction loans (including
(CRE) Loans                1-to-4 family residential and commercial construction loans) and
                           other land loans. CRE loans also include loans secured by
                           multifamily property and nonfarm nonresidential property, where
                           the primary source of repayment is derived from rental income
                           associated with the property or the proceeds of the sale,
                           refinancing, or permanent financing of the property.
Concentration              A concentration is a significantly large volume of economically
                           related assets that an institution has advanced or committed to a
                           certain industry, person, entity, or affiliated group. These assets
                           may, in the aggregate, present a substantial risk to the safety and
                           soundness of the institution.

Consent Order              A formal enforcement action issued by financial institution
                           regulators to a bank or affiliated party to stop an unsafe or unsound
                           practice or violation. A Consent Order may be terminated by the
                           regulators when they have determined that the bank’s condition
                           has significantly improved and the action is no longer needed or
                           the bank has materially complied with its terms.

Global Cash Flow           A global cash flow analysis is a comprehensive evaluation of
Analysis                   borrower capacity to perform on a loan. During underwriting,
                           proper global cash flow analysis must thoroughly analyze
                           projected cash flow and guarantor support. Beyond the individual
                           loan, global cash flow must consider all other relevant factors,
                           including: guarantor’s related debt at other financial institutions,
                           current and complete operating statements of all related entities,
                           and future economic conditions. In addition, global cash flow
                           analysis should be routinely conducted as a part of credit
                           administration. The extent and frequency of global cash flow
                           analysis should be commensurate to the amount of risk associated
                           with the particular loan.
Loan Participation         The transfer of an undivided interest in all or part of the principle
                           amount of a loan from a seller, known as the “lead,” to a buyer,
                           known as the “participant,” without recourse to the lead, pursuant
                           to an agreement between the lead and the participant. “Without
                           recourse” means that the loan participation is not subject to any
                           agreement that requires the lead to repurchase the participant’s
                           interest or to otherwise compensate the participant upon the
                           borrower’s default on the underlying loan.


                                        I-43
                                                                            Appendix 2


         Term                                         Definition
Loan Production Office   Loan production offices are banking offices that take loan
                         applications and arrange financing for corporations and small
                         businesses, but they do not accept deposits. Loan applications are
                         subject to approval by the lending institution.
Loan-to-Value (LTV)      A ratio for a single loan and collateral calculated by dividing the
                         total loan amount at origination by the market value of the
                         collateral securing the credit plus any readily marketable collateral
                         or other acceptable collateral.

Material Loss            As defined by section 38(k)(2)(B) of the FDI Act, as amended by
                         the Dodd-Frank Wall Street Reform and Consumer Protection Act,
                         for the period beginning January 1, 2012 and ending December 31,
                         2013, a material loss is defined as any estimated loss to the DIF in
                         excess of $150 million.
Memorandum of            A MOU is an informal agreement between the institution and the
Understanding (MOU)      FDIC, which is signed by both parties. The State Authority may
                         also be party to the agreement. MOUs are designed to address and
                         correct identified weaknesses in an institution’s condition.

Nonaccrual Status        The status of an asset, often a loan, which is not earning the
                         contractual rate of interest in the loan agreement, due to financial
                         difficulties of the borrower. Typically, interest accruals have been
                         suspended because full collection of principal is in doubt, or
                         interest payments have not been made for a sustained period of
                         time. Loans with principal and interest unpaid for at least 90 days
                         are generally considered to be in a nonaccrual status.

Offsite Review           The FDIC’s Offsite Review Program is designed to identify a
Program                  bank’s emerging supervisory concerns and potential problems so
                         that supervisory strategies can be adjusted appropriately. Offsite
                         reviews are performed quarterly for each bank that appears on the
                         ORL. Regional management is responsible for implementing
                         procedures to ensure that offsite review findings are factored into
                         examination schedules and other supervisory activities.

Peer Group               Institutions are assigned to 1 of 15 peer groups based on asset size,
                         number of branches, and whether the institution is located in a
                         metropolitan or non-metropolitan area.
Prompt Corrective        The purpose of PCA is to resolve the problems of insured
Action (PCA)             depository institutions at the least possible long-term cost to the
                         Deposit Insurance Fund. Part 325, subpart B, of the FDIC Rules
                         and Regulations, 12 Code of Federal Regulations, section 325.101,
                         et. seq., implements section 38, Prompt Corrective Action, of the
                         FDI Act, 12 United States Code, Section 1831(o), by establishing a
                         framework for determining capital adequacy and taking
                         supervisory actions against depository institutions that are in an
                         unsafe or unsound condition. The following terms are used to
                         describe capital adequacy: (1) Well Capitalized, (2) Adequately

                                      I-44
                                                                              Appendix 2


          Term                                        Definition
                           Capitalized, (3) Undercapitalized, (4) Significantly
                           Undercapitalized, and (5) Critically Undercapitalized.

                           A PCA Directive is a formal enforcement action seeking corrective
                           action or compliance with the PCA statute with respect to an
                           institution that falls within any of the three categories of
                           undercapitalized institutions.
Risk-Based Capital         A “supplemental” capital standard under Part 325 of the FDIC
                           Rules and Regulations. Under the risk-based capital framework, a
                           bank’s qualifying total capital base consists of two types of capital
                           elements, “core capital” (Tier 1) and “supplementary capital”
                           (Tier 2).
Risk-Based Capital Rules   Part 325 Appendix A—Statement of Policy on Risk-Based
                           Capital—defines the FDIC’s risk-based capital rules. Appendix A
                           states that an institution’s balance sheet assets and credit
                           equivalent amounts of off-balance sheet items are assigned to
                           broad risk categories according to the obligor, or, if relevant, the
                           guarantor or the nature of the collateral. The aggregate dollar
                           amount in each category is then multiplied by the risk weight
                           assigned to that category. The resulting weighted values from each
                           of the four risk categories are added together, and this sum is the
                           risk-weighted assets total that, as adjusted, comprises the
                           denominator of the risk-based capital ratio. The institution’s
                           qualifying total capital base is the numerator of the ratio.

Tier 1 Capital             Defined in Part 325 of the FDIC Rules and Regulations, 12 Code
                           of Federal Regulations, section 325.2(v), as
                           The sum of:
                           • Common stockholder’s equity (common stock and related
                           surplus, undivided profits, disclosed capital reserves, foreign
                           currency translation adjustments, less net unrealized losses on
                           available-for-sale securities with readily determinable market
                           values);
                           • Non-cumulative perpetual preferred stock; and
                           • Minority interest in consolidated subsidiaries;
                           Minus:
                           • Certain intangible assets;
                           • Identified losses;
                           • Investments in securities subsidiaries subject to section 337.4; and
                           • Deferred tax assets in excess of the limit set forth in section
                           325.5(g).
Troubled Debt              Troubled debt restructurings are compromises (concessions) that
Restructuring (TDR)        lenders make to improve collectability or reduce losses on problem
                           loans. These concessions emanate from a borrower’s deteriorating
                           financial condition, which in turn prompts the lender to focus on
                           achieving the maximum recovery. Qualifying restructuring
                           activities include one or more of the following: asset transfers,
                           granting of equity interests, and modification of loans terms. Not

                                        I-45
                                                                           Appendix 2


          Term                                      Definition
                      all debt restructuring is considered “troubled.” Loan renewals or
                      extensions at interest rates that are equal to the current interest rate
                      or a market rate of interest are not considered renegotiated debt.
Trust Preferred       Hybrid instruments possessing characteristics typically associated
Securities (TPS)      with debt obligations. Under the basic structure of TPS, a
                      corporate issuer, such as a bank holding company, first organizes a
                      business trust or other special purpose entity. This trust issues two
                      classes of securities: common securities, all of which are
                      purchased and held by the corporate issuer, and TPS, which are
                      sold to investors. The business trust’s only assets are deeply
                      subordinated debentures of the corporate issuer, which the trust
                      purchases with the proceeds from the sale of its common and
                      preferred securities. The corporate issuer makes periodic interest
                      payments on the subordinated debentures to the business trust,
                      which uses these payments to pay periodic dividends on the TPS to
                      the investors. The subordinated debentures have a stated maturity
                      and may also be redeemed under other circumstances. Most TPS
                      are subject to a mandatory redemption upon the repayment of the
                      debentures.
Uniform Bank          The UBPR is an analysis of financial institution financial data and
Performance Report    ratios that includes extensive comparisons to peer group
(UBPR)                performance. The report is produced by the Federal Financial
                      Institutions Examination Council for the use of banking
                      supervisors, bankers, and the general public and is produced
                      quarterly from Call Report data submitted by banks.

Uniform Financial     Financial institution regulators and examiners use the UFIRS to
Institutions Rating   evaluate a bank’s performance in six components represented by
System (UFIRS)        the CAMELS acronym: Capital adequacy, Asset quality,
                      Management practices, Earnings performance, Liquidity position,
                      and Sensitivity to market risk. Each component, and an overall
                      composite, is assigned a rating of “1” through “5,” with “1” having
                      the least regulatory concern and “5” having the greatest concern.




                                    I-46
                                                                              Appendix 3


                                   Acronyms

ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
ASC      Accounting Standard Codification
BBR      Bank Board Resolution
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to Market
         Risk
CFO      Chief Financial Officer
C&I      Commercial and Industrial
CPP      Capital Purchase Program
CRP      Capital Restoration Plan
CRE      Commercial Real Estate
DIF      Deposit Insurance Fund
DPC      Debt Previously Contracted
DRR      Division of Resolutions and Receiverships
ED       Examination Documentation
FAS      Financial Accounting Standard
FDI      Federal Deposit Insurance
FIL      Financial Institution Letter
GAGAS    Generally Accepted Government Auditing Standards
LLC      Limited Liability Company
LTV      Loan-to-Value
MLR      Material Loss Review
MOU      Memorandum of Understanding
OIG      Office of Inspector General
ORL      Offsite Review List
PCA      Prompt Corrective Action
RMS      Division of Risk Management Supervision
SEC      Securities and Exchange Commission
TARP     Troubled Asset Relief Program
TCB      Tennessee Commerce Bank
TDFI     Tennessee Department of Financial Institutions
TDR      Troubled Debt Restructuring
TPS      Trust Preferred Securities
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                                         I-47
                Part II

Corporation Comments and OIG Evaluation
Corporation Comments and OIG Evaluation
Subsequent to the issuance of KPMG’s draft report, RMS and TDFI officials provided
additional information for KPMG’s consideration, and KPMG revised its report to reflect
this information, as appropriate. On September 11, 2012, the Director, RMS, provided a
written response to a draft of this report. That response is provided in its entirety on
pages II-2 and II-3 of this report.

In the response, the Director reiterated the causes of TCB’s failure and the supervisory
activities described in the report. Further, RMS has recognized the threat that institutions
with high risk profiles, such as TCB, pose to the DIF and issued additional guidance to
examiners related to C&I loans and lease financing in 2009 and 2010. RMS also issued a
FIL to FDIC-supervised institutions in 2009 entitled, The Use of Volatile or Special
Funding Sources by Financial Institutions That Are in a Weakened Condition.
According to RMS, this FIL heightened its supervision of institutions with aggressive
growth strategies or excessive reliance on volatile funding sources.




                                            II-1
                      CORPORATION COMMENTS
    _____________________________________________________________




Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990                               Division of Risk Management Supervision




                                                                                September 11, 2012

 TO:                 Stephen M. Beard
                     Deputy Inspector General for Audits and Evaluations

 FROM:               Sandra L. Thompson /Signed/
                     Director


 SUBJECT:            Draft Audit Report Entitled Material Loss Review of Tennessee Commerce Bank,
                     Franklin, Tennessee
 Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-
 Frank Wall Street Reform and Consumer Protection Act, the Federal Deposit Insurance
 Corporation’s (FDIC) Office of Inspector General (OIG) conducted a Material Loss Review of
 Tennessee Commerce Bank (TCB) which failed on January 27, 2012. This memorandum is the
 response of the Division of Risk Management Supervision (RMS) to the OIG’s Draft Report
 received on August 9, 2012, and subsequent revisions.

 TCB failed primarily because its Board and management did not effectively manage the risks
 associated with loan growth; exposure to large, complex borrower relationships; and
 concentrations in economically sensitive and specialized segments of the commercial and
 industrial (C&I) market. Lax oversight of the lending and credit administration functions
 contributed to asset quality weaknesses. In addition, TCB did not maintain capital at levels that
 were commensurate with its increasing risk profile. TCB also relied on capital injections from
 the holding company and non-core funding sources to support loan growth. By September 2011,
 TCB’s loan portfolio had significantly deteriorated, requiring increases to the allowance for loan
 and lease losses that depleted earnings, eroded capital, and strained liquidity. TCB was unable to
 raise additional capital to sustain safe and sound operations.

 From 2007 to 2012, the FDIC and the Tennessee Department of Financial Institutions (TDFI)
 conducted five onsite risk management examinations, three onsite visitations, and offsite
 monitoring. Examiners identified key risks in TCB’s operations, brought these to the attention of
 the Board and management, and made recommendations for improvement. However, TCB’s
 Board and management did not take adequate steps to address the weaknesses. In 2009,
 examiners downgraded TCB and proposed a Memorandum of Understanding (MOU), which
 TCB’s Board refused to sign. Although TCB adopted a Board Resolution instead, the key
 objectives and goals of the proposed MOU were not addressed. The 2011 joint examination
 noted that all areas of the bank had become critically deficient, at which point examiners further
 downgraded TCB and secured a stipulation by the Board to a Consent Order.

 In 2009, TCB’s parent, Tennessee Commerce Bancorp, Inc., received $30 million under the
 Treasury Department’ Capital Purchase Program (CPP), $24 million of which was down-
 streamed to TCB. TCB stated the CPP funds were used to augment capital and support lending
 needs. Examiners reviewed TCB’s use of CPP capital during the 2009 and 2010 examinations in
 accordance with internal procedures. However, the 2010 examination report reflects that



                                                      II-2
II-3
